<html>
<title> - HIGH-PERFORMANCE COMPUTING</title>
<body><pre>[Senate Hearing 108-674]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-674
 
                       HIGH-PERFORMANCE COMPUTING

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON ENERGY

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2176

    THE HIGH-END COMPUTING REVITALIZATION ACT OF 2004, WHICH WOULD 
 AUTHORIZE THE SECRETARY TO CARRY OUT A PROGRAM OF R&D TO ADVANCE HIGH-
              END COMPUTING THROUGH THE OFFICE OF SCIENCE

                                  AND

    TO RECEIVE TESTIMONY REGARDING THE DEPARTMENT OF ENERGY'S HIGH-
   PERFORMANCE COMPUTING R&D ACTIVITIES IN BOTH THE NATIONAL NUCLEAR 
           SECURITY ADMINISTRATION AND THE OFFICE OF SCIENCE

                               __________

                             JUNE 22, 2004


                       Printed for the use of the
               Committee on Energy and Natural Resources





                 U.S. GOVERNMENT PRINTING OFFICE

96-630                 WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866)512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001




               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington
                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                 Pete Lyons, Professional Staff Member
                                 ------                                

                         Subcommittee on Energy

                  LAMAR ALEXANDER, Tennessee, Chairman
                  DON NICKLES, Oklahoma, Vice Chairman

JAMES M. TALENT, Missouri            BOB GRAHAM, Florida
JIM BUNNING, Kentucky                DANIEL K. AKAKA, Hawaii
CRAIG THOMAS, Wyoming                TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
LARRY E. CRAIG, Idaho                EVAN BAYH, Indiana
CONRAD BURNS, Montana                CHARLES E. SCHUMER, New York
                                     MARIA CANTWELL, Washington

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                  Jonathan Epstein, Legislative Fellow
                      Adam Rosenberg, AAAS Fellow



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Alexander, Hon. Lamar, U.S. Senator from Tennessee...............     1
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     3
Decker, Dr. James F., Principal Deputy Director, Office of 
  Science, Department of Energy..................................     3
Kusnezov, Dr. Dimitri, Director, Office of Advanced Simulation 
  and Computing, National Nuclear Security Administration........    31
Reed, Dr. Daniel A., Director, Renaissance Computing Institute, 
  University of North Carolina at Chapel Hill, Chapel Hill, NC...    23
Scarafino, Vincent, Manager, Numerically Intensive Computing, 
  Ford Motor Company, Dearborn, MI...............................    29
Turek, David, Vice President, Deep Computing, IBM Corporation, 
  Poughkeepsie, NY...............................................    18
Wadsworth, Dr. Jeffrey, Director, Oak Ridge National Laboratory, 
  Oak Ridge, TN..................................................    13


                       HIGH-PERFORMANCE COMPUTING

                              ----------                              


                         TUESDAY, JUNE 22, 2004

                               U.S. Senate,
                            Subcommittee on Energy,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:45 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Lamar 
Alexander presiding.

          OPENING STATEMENT OF HON. LAMAR ALEXANDER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Alexander. Good afternoon. The hearing of the 
Energy Subcommittee will come to order.
    Senator Bingaman is here, our ranking member of our full 
committee, former chairman of the Energy and Natural Resources 
Committee, and we look forward to today's discussion about 
high-performance computing.
    Excuse us for being a little late. We both had to attend 
our class photo. They have that once a year in the U.S. Senate, 
so there we all were.
    The purpose of this hearing is to examine how the United 
States can recapture worldwide leadership in high-performance 
computing. To that end, we are here today to consider S. 2176, 
the High-End Computing Revitalization Act of 2004, which 
Senator Bingaman and I co-sponsor.
    Until March 2002, 2 years ago, the United States was the 
undisputed leader in high-speed computing. That advantage has 
played a significant role in our ability to compete in the 
global marketplace and our standard of living. Sometimes we 
overlook the fact in the United States we have 5 to 6 percent 
of the people in the world and better than a third of the gross 
national product. There is a reason for that, and one of the 
reasons is, according to the National Academy of Science, half 
our job growth since World War II can be attributed to our 
investments in science and technology.
    In 2002, however, Japan introduced its Earth Simulator, 
which is currently two and a half times more powerful than any 
other high-performance computer in the world. So Japan is the 
king of high-performance computing today. When Japan first 
introduced the Earth Simulator, it was nearly five times more 
powerful than any other high-performance computer in the world.
    Senator Bingaman and I both recently visited Japan. We have 
both been there in the last 6 or 8 months, and we have both 
been briefed by the Japanese on their investment in the Earth 
Simulator.
    Japan's development of the Earth Simulator meant that the 
United States no longer was the clear leader in high-
performance computing, and for the first time, American 
researchers were looking overseas to obtain access to the 
latest computing tools.
    Recapturing the lead in high-speed computing is one of the 
top priorities of the Secretary of Energy's 20-year facility 
plan. This bill, the one we are talking about today, and the 
companion bill that was reported out of the House Committee on 
Science last week will help the United States do just that.
    High-performance computing is important to this country for 
several reasons. First, it will allow us to address a variety 
of scientific questions. For example, there is a lot of debate 
around here about global warming and climate change. We make a 
lot of decisions about clean air regulations, decisions that 
cost us money, that conceivably could limit our economy, that 
affect our health. High-end advanced computing will help us 
simulate the earth's climate and have better science upon which 
to base these very important policy decisions.
    Second, high-performance computing is required to examine 
whether fusion power might become a reality. Fusion could 
provide low-cost energy for people around the world. We all are 
dramatically reminded today in the United States of how 
important that could be. Also, nanoscience has the possibility 
of revolutionizing chemistry and materials sciences. The full 
benefit of nanoscience may not be reached without detailed 
simulation of quantum interactions.
    And third, there is a large concern and much debate in the 
U.S. Senate about our keeping jobs from moving overseas. 
Advanced computing would enable us to lower our manufacturing 
costs and improve our technologies. That means better jobs here 
in the United States. If you go to Europe, you do not see 
headlines about jobs outsourcing. You see headlines about 
brains outsourcing, brains being attracted to the United States 
from Europe by our research universities and our great 
laboratories. Investing and recapturing the lead in high-
performance computing would attract more of the most talented 
scientists and students to the United States, which will help 
fuel our economy.
    Last month, the Department of Energy took an important step 
toward putting America back in the forefront of high-speed 
computing. DOE announced that the Oak Ridge National Laboratory 
in Tennessee was selected as the winner of its competition to 
develop a leadership class computational facility. ORNL will 
lead an effort that includes many of the brightest minds in our 
country to try to reassert our leadership in high-speed 
computing.
    Today we will hear firsthand how reestablishing our 
leadership will enable us not only to address grand scientific 
challenges, but to advance our manufacturing industry to 
enhance our U.S. competitiveness in the world marketplace.
    We will also hear about the need for a commitment by the 
Federal Government to develop high-performance computing 
systems and the clear signal that this commitment sends to our 
computer manufacturers and our universities.
    We have a distinguished panel of witnesses. I will 
introduce them in just a few minutes, but first I wanted to 
invite Senator Bingaman, the ranking member of the Energy 
Committee and someone who helped encourage my interest in this 
subject, if he has an opening statement.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Thank you very much, Mr. Chairman. Thank 
you for your leadership on this issue and for holding this 
hearing.
    I do think this is a very important subject. We had a 
chance to visit on this as we were coming over here from the 
Capitol just a few minutes ago. The point I made is that this 
is one of the long poles in the tent, as the saying goes, as 
far as the ability of the United States to remain a world 
leader in science and technology. I believe very strongly that 
leadership in high-end computing is an essential part of 
leadership overall in science and technology, and S. 2176 is 
the legislation that we have introduced to try to help us in 
this regard. It is based very much on the Office of Science's 
plan in its well-conceived ``Facilities for the Future'' report 
that was issued last November.
    A lot of discussion around the Senate, of course, around 
the Congress generally is that much of this investment might 
better be left for the private sector. This is an area where no 
single company can plan on capturing the full value or a 
substantial portion of the value of the investment that is 
required here. This has to be an area where the Government 
steps in and provides assistance. We have done that in the 
past. We have been the leader in this area. Our leadership is 
not there today, and we need to reinstate that. So I feel very 
strongly that we should move ahead.
    Again, I thank you, Mr. Chairman, for your interest and 
leadership, and I hope that this hearing will help us in that 
effort to move ahead. Thank you.
    Senator Alexander. Thank you, Senator Bingaman.
    Let me now introduce the witnesses that we have. We have 
two panels. We asked Dr. James Decker, Deputy Director of the 
Office of Science in the Department of Energy, to be here. Dr. 
Decker is here on behalf of Dr. Ray Orbach, who could not 
attend because of personal reasons. We understand that and we 
hope you will convey to him our best wishes.
    After Dr. Decker's testimony, Senator Bingaman and I will 
ask questions, and then we will go to the other witnesses. The 
other witnesses I will introduce at that time.
    Let me suggest, Dr. Decker, we have your full statement. We 
have read it. If you could summarize your statement--and I 
would ask the other witnesses to be thinking of that too--if 
you could do that in about 5 minutes, then that would leave 
Senator Bingaman and me and any other Senators who might come 
the opportunity to go back and forth with questions. Dr. 
Decker.

 STATEMENT OF DR. JAMES F. DECKER, PRINCIPAL DEPUTY DIRECTOR, 
            OFFICE OF SCIENCE, DEPARTMENT OF ENERGY

    Dr. Decker. Thank you, Mr. Chairman. Mr. Chairman and 
Senator Bingaman, I certainly commend you for holding this 
hearing, and I appreciate the opportunity to testify on behalf 
of the Department of Energy's Office of Science on a subject of 
importance to science in this Nation, advanced scientific 
supercomputing capability.
    Dr. Orbach, who was originally scheduled to appear, asked 
me to convey his regrets to the committee, that he is unable to 
be here today.
    Computational modeling and simulation on today's 
supercomputers is already an important tool for scientific 
discovery. For example, simulation validated by experimental 
observations has played a key role in understanding energy 
transport due to complex turbulent processes in magnetic fusion 
devices.
    In climate modeling, where it is impossible to do 
controlled experiments, computational modeling is essential. In 
fact, modeling has given us very successful forecasts of 
seasonal and inter-annual climate variability. For example, we 
now have quite reliable predictions of the onset and duration 
of El Nino's southern oscillation climate phenomenon.
    With potential advances in computer capability that will 
increase our computing power by factors of a hundred or 
thousand in the next few years, researchers will be able to 
attack larger, more complex scientific questions that will make 
computational science an even more important tool for 
scientific discovery.
    The advent of Japan's Earth Simulator 2 years ago gave us a 
glimpse of the potential that can be achieved using computer 
architectures that are optimized for scientific problems. 
Coupled with models developed by integrated multidisciplinary 
teams of researchers, computer scientists, and mathematicians, 
such computers offer the promise of discovery and design of 
advanced materials, development of catalysts that dramatically 
reduce energy costs and emissions, understanding of the 
dynamics of combustion systems, dramatically better 
understanding of climate change, integrated simulation of 
fusion experiments, optimization of the design and technology 
of future accelerators. Each of the above examples--and there 
are many more--will have a significant effect on the missions 
of the Department of Energy, the missions of other Government 
agencies, and the economy.
    The Bush administration has developed a coordinated multi-
agency approach to revitalizing U.S. high-end computing. An 
inter-agency study by the High-End Computing Revitalization 
Task Force identified our critical needs and, in a report 
released in May of this year, proposed a game plan to improve 
U.S. capabilities. The Office of Science and other Federal 
agencies are working to implement the recommendations of the 
High-End Computing Revitalization Task Force report and develop 
the next generation of leadership class computational 
capability, as well as the networks needed to allow widespread 
access to these new supercomputers.
    On May 12 of this year, Secretary Spencer Abraham announced 
that the Department of Energy will provide $25 million in this 
fiscal year to a team led by Oak Ridge National Laboratory to 
begin to build a new supercomputer for scientific research. In 
addition to Oak Ridge, the team includes the Argonne National 
Laboratory, Pacific Northwest Laboratory, and others. This is 
an important step toward achieving our leadership goals.
    Mr. Chairman, you captured the importance of that 
leadership very well in your floor statement on the Oak Ridge 
facility when you said it is one of the critical science fields 
in which we need to be the world's leader. This is because 
high-performance computing produces scientific discoveries that 
were once thought only possible through experimentation. I 
would add in some cases experimentation is not practical or 
possible, for example, climate change.
    Mr. Chairman, high-performance computing provides a new 
window for researchers to understand the natural world with a 
precision that could only be imagined a few years ago. It is 
clear that in combination with our computing industry, we can 
build the necessary tools. The administration has developed a 
clear path forward for revitalizing U.S. high-end computing, 
and with vital support from Congress and the administration, I 
am confident that we will succeed.
    Once again, thank you for the opportunity to testify before 
this committee on this important matter.
    [The prepared statement of Dr. Decker follows:]
 Prepared Statement of Dr. James F. Decker, Principal Deputy Director, 
                Office of Science, Department of Energy
    Mr. Chairman and members of the Committee, I commend you for 
holding this hearing--and I appreciate the opportunity to testify on 
behalf of the Department of Energy's (DOE) Office of Science, on a 
subject of central importance to this Nation: advanced supercomputing 
capability for science.
    The Bush Administration has recognized the need for the U.S. to 
emphasize the importance of high-end computing and is working as a team 
to address it. The Administration commissioned an interagency study by 
the High End Computing Revitalization Task Force (HECRTF). The HECRTF 
report (http://www.itrd.gov/pubs/2004_hecrtf/20040510_hecrtf.pdf) 
reinforces the idea that no one agency can--or should--be responsible 
for ensuring that our scientists have the computational tools they need 
to do their job, but duplication of effort must be avoided.
    Through the efforts of DOE's Office of Science and other federal 
agencies, we are working to implement the recommendations of the HECRTF 
Report by investing in the development of the next generation of 
supercomputer architectures, as well as the networks to enable 
widespread access to these new supercomputers.
    On May 12th of this year, Secretary Spencer Abraham announced that 
the DOE will grant Oak Ridge National Lab (ORNL), Argonne National Lab, 
Pacific Northwest National Lab and its development partners, Cray, IBM 
and SGI, $25 million in funding to begin to build a new supercomputer 
for scientific research. The Department selected ORNL from four 
proposals received from its non-weapon national labs. The Department is 
in the final stages of completing this award and expects to start the 
project before the end of this fiscal year.
    Computational modeling and simulation rank among the most 
significant developments in the practice of scientific inquiry in the 
latter half of the 20th century and are now a major force for discovery 
in their own right. In the past century, scientific research was 
extraordinarily successful in identifying the fundamental physical laws 
that govern our material world. At the same time, the advances promised 
by these discoveries have not been fully realized, in part because the 
real-world systems governed by these physical laws are extraordinarily 
complex. Computers help us visualize, test hypotheses, guide 
experimental design, and most importantly determine if there is 
consistency between theoretical models and experiment. Computer-based 
simulation provides a means for predicting the behavior of complex 
systems that can only be described empirically at present. Since the 
development of digital computers in mid-century, scientific computing 
has greatly advanced our understanding of the fundamental processes of 
nature, e.g., fluid flow and turbulence in physics, molecular structure 
and reactivity in chemistry, and drug-receptor interactions in biology. 
Computational simulation has even been used to explain, and sometimes 
predict, the behavior of such complex natural and engineered systems as 
weather patterns and aircraft performance.
    Within the past two decades, scientific computing has become a 
contributor to essentially all scientific research programs. It is 
particularly important to the solution of research problems that are 
(i) insoluble by traditional theoretical and experimental approaches, 
e.g., prediction of future climates or the fate of underground 
contaminants; (ii) hazardous to study in the laboratory, e.g., 
characterization of the chemistry of radionuclides or other toxic 
chemicals; or (iii) time-consuming or expensive to solve by traditional 
means, e.g., development of new materials, determination of the 
structure of proteins, understanding plasma instabilities, or exploring 
the limitations of the ``Standard Model'' of particle physics. In many 
cases, theoretical and experimental approaches do not provide 
sufficient information to understand and predict the behavior of the 
systems being studied. Computational modeling and simulation, which 
allows a description of the system to be constructed from basic 
theoretical principles and the available experimental data, are keys to 
solving such problems.
    We have moved beyond using computers to solve very complicated sets 
of equations to a new regime in which scientific simulation enables us 
to obtain scientific results and to perform discovery in the same way 
that experiment and theory have traditionally been used to accomplish 
those ends. We must think of computation as the third of the three 
pillars that support scientific discovery, and indeed there are areas 
where the only approach to a solution is through high-end computation.
    Combustion is the key source of energy for power generation, 
industrial process heat and residential applications. In all of these 
areas, combustion occurs in a turbulent environment. Although 
experimental and theoretical investigations have been able to provide 
substantial insights into turbulent flame dynamics, fundamental 
questions about flame behavior remain unanswered. Current limitations 
in computational power do not allow combustion scientists to address 
the range of conditions needed to have environmental and economic 
impact. Leadership class computers should enable us to model more 
complex fuels with emission chemistry under conditions typical of 
industrial settings. These computations should make it possible to 
design new low-emission burners that could dramatically reduce 
NO<INF>X</INF> emissions.
    The Fusion Program must be able to model an experiment the size of 
the International Thermonuclear Experimental Reactor (ITER) through the 
duration of a discharge that may last on the order of hundreds of 
seconds. Current codes are able to model a variety of the physical 
phenomena that occur in small experiments operating on a millisecond 
time scale. Leadership class computers should enable scientists to 
simulate burning plasmas in ITER and include new physics such as more 
realistic treatment of electron dynamics and multiple species of fusion 
products such as high energy alpha particles.
    High-end computing must be coupled with high-performance networks 
to fully realize its potential. These networks play a critical role 
because they make it possible to overcome the geographical distances 
that often hinder science. They make vast scientific resources 
available to scientists, regardless of location, whether they are at a 
university, national laboratory, or industrial setting. We work with 
the National Science Foundation and university consortia such as 
Internet 2 to ensure that scientists at universities can seamlessly 
access unique DOE facilities and their scientific partners in DOE 
laboratories. In addition, the emergence of high performance computers 
as tools for science, just like our light sources, accelerators and 
neutron sources, has changed the way in which science is conducted. 
Today and in the future, large multidisciplinary teams are needed to 
make the best use of computers as tools for science. These teams need 
access to significant allocations of computer resources to perform 
leading edge science. In the Office of Science we are building on the 
experience of the National Nuclear Security Administration's Office of 
Advanced Simulation and Computing program to build and manage these 
teams.
    The astonishing speeds of new high-end machines, including the 
Earth Simulator, should allow computation to inform our approach to 
science. We are now able to contemplate exploration of worlds never 
before accessible to mankind. Previously, we used computers to solve 
sets of equations representing physical laws too complicated to solve 
analytically. Now we can simulate systems to discover physical laws for 
which there are no known predictive equations. We can model physical 
structures with hundreds of thousands, or maybe even millions, of 
``actors'' interacting with one another in a complex fashion. The speed 
of our new computational environment allows us to test different inter-
actor relations to see what macroscopic behaviors can ensue. 
Simulations can help determine the nature of the fundamental ``forces'' 
or interactions between ``actors.''
    The ASCR program mission is to discover, develop, and deploy the 
computational and networking tools that enable scientific researchers 
to analyze, model, simulate, and predict complex phenomena important to 
the Department of Energy--and to the U.S. and the world.
    Advanced scientific computing is central to DOE's missions. It is 
essential to simulate and predict the behavior of nuclear weapons and 
aid in the discovery of new scientific knowledge.
    As the lead government funding agency for basic research in the 
physical sciences, the Office of Science has a special responsibility 
to ensure that its research programs continue to advance the frontiers 
of science. This requires significant enhancements to the Office of 
Science's scientific computing programs. These include both more 
capable computing platforms and the development of the sophisticated 
mathematical and software tools required for large-scale simulations.
    Existing highly parallel computer architectures, while extremely 
effective for many applications, including solution of some important 
scientific problems, are only able to operate at 5-10% of their 
theoretical maximum capability on other applications. For most vendors, 
today's high performance computer market is too small a fraction of the 
overall market to justify the level of R&D needed to ensure development 
of computers that can solve the most challenging scientific problems or 
the substantial investments needed to validate their effectiveness on 
industrial problems.
    Therefore, we are working in partnership with the National Nuclear 
Security Administration (NNSA), the National Security Agency (NSA), and 
the Defense Advanced Research Project Agency (DARPA) to identify 
architectures which are most effective in solving specific types of 
problems; to evaluate the effectiveness of various different existing 
computer architectures; and to spur the development of new 
architectures tailored to the requirements of science and national 
security applications.
    This partnership is working to ensure the development of computers 
that can meet the most demanding Federal missions in science and 
national security. We are also working to transfer the knowledge we 
develop to U.S. industry to enable a vibrant U.S. high performance 
computing industry, which can provide the impetus for economic growth 
and competitiveness across the nation. The Office of Science plays a 
key role in providing these capabilities to the open science community 
to support U.S. scientific leadership, just as we do with other 
facilities for science.
    Advanced scientific computing will continue to be a key contributor 
to scientific research in the 21st century. Major scientific challenges 
in all Office of Science research programs will be addressed by 
advanced scientific supercomputing. Designing materials atom-by-atom, 
revealing the functions of proteins, understanding and controlling 
fusion plasma turbulence, designing new particle accelerators, and 
modeling global climate change; are just a few examples.
    In fact, in fulfilling its mission over the years, the Office of 
Science has played a key role in maintaining U.S. leadership in 
scientific computation and networking worldwide. Consider some of the 
innovations and contributions made by DOE's Office of Science:

  <bullet> helped develop the Internet;
  <bullet> pioneered the transition to massively parallel 
        supercomputing in the civilian sector;
  <bullet> began the computational analysis of global climate change;
  <bullet> developed many of the computational technologies for DNA 
        sequencing that have made possible the unraveling of the human 
        genetic code.

    Various computational scientists have said that discovery through 
simulation requires sustained speeds starting at 50 teraflops to 
examine a subset of challenging problems in accelerator science and 
technology, astrophysics, biology, chemistry and catalysis, climate 
prediction, combustion, computational fluid dynamics, computational 
structural and systems biology, environmental molecular science, fusion 
energy science, geosciences, groundwater protection, high energy 
physics, materials science and nanoscience, nuclear physics, soot 
formation and growth, and more.
    The Office of Science also is a leader in research efforts to 
capitalize on the promise of nanoscale science and biotechnology. This 
revolution in science promises a revolution in industry.
    To develop systems capable of meeting the challenges faced by DOE, 
universities, and industry, the Office of Science invests in several 
areas of computation: high-performance computing, large-scale networks, 
and the software that enables scientists to use these resources as 
tools for discovery. The FY 2005 President's Request for the Office of 
Science includes $204 million for ASCR for IT R&D and approximately $20 
million in the other Offices to support the development of the next 
generation of scientific simulation software for SC mission 
applications.
    As a part of this portfolio the Office of Science supports basic 
research in applied mathematics and the computer science needed to 
underpin advances in high performance computers and networks for 
science.
    In FY 2001 the Office of Science initiated the Scientific Discovery 
through Advanced Computing (www.science.doe.gov/SciDAC/) effort to 
leverage our basic research in mathematics and computer science and 
integrate this research into the scientific teams that extend the 
frontiers of science across DOE-SC. We have assembled interdisciplinary 
teams and collaborations to develop the necessary state-of-the-art 
mathematical algorithms and software, supported by appropriate hardware 
and middleware infrastructure, to use terascale computers effectively 
to advance fundamental scientific research at the core of DOE's 
mission.
    All of these research efforts, as well as the success of 
computational science across SC, depend on a portfolio of high 
performance computing facilities and test beds and on the high 
performance networks that link these resources to the scientists across 
the country. DOE and the Office of Science have been leaders in testing 
and evaluating new high performance computers and networks and turning 
them into tools for scientific discovery since the early 1950s. The 
Office of Science established the first national civilian supercomputer 
center, the Magnetic Fusion Energy Computer Center, in 1975. We have 
tested and evaluated early versions of computers ranging from the first 
Cray 1s to the parallel architectures of the 1990s to the Cray X1 at 
ORNL. In many cases these systems would not have existed without the 
Office of Science as a partner with the vendors. Our current facilities 
and test beds include:

  <bullet> The Center for Computational Sciences (CCS) at Oak Ridge 
        National Laboratory, has been testing and evaluating leading 
        edge computer architectures as tools for science for over a 
        decade. The latest evaluation is on a Cray X1 formed the basis 
        for ORNL's successful proposal to begin developing a leadership 
        class computing capability for the U.S. open scientific 
        community. In his remarks announcing the result of this 
        competition, Secretary of Energy Spencer Abraham stated, ``This 
        new facility will enable the Office of Science to deliver world 
        leadership-class computing for science,'' and ``will serve to 
        revitalize the U.S. effort in high-end computing.'' This 
        supercomputer will be open to the scientific community for 
        research.
  <bullet> The National Energy Research Scientific Computing Center 
        (NERSC) at Lawrence Berkeley National Laboratory, which 
        provides leading edge high-performance computing services to 
        over 2,000 scientists nationwide. NERSC has a 6,000 processor 
        IBM SP3 computer with a peak speed of 10 TeraFLOPS. We have 
        initiated a new program at NERSC, Innovative and Novel 
        Computational Impact on Theory and Experiment (INCITE), to 
        allocate substantial computing resources to a few, 
        competitively selected, research proposals from the national 
        scientific community. Last year, I selected three proposals for 
        INCITE. One of these has successfully simulated the explosion 
        of a supernova in 3-D for the first time.
  <bullet> The Energy Sciences Network (ESnet), which links DOE 
        facilities and researchers to the worldwide research community. 
        ESnet works closely with other Federal research networks and 
        with university consortia such as Internet 2 to provide 
        seamless connections from DOE to other research communities. 
        This network must address facilities that produce millions of 
        gigabytes (petabytes) of data each year and deliver these data 
        to scientists across the world.

    We have learned important lessons from these test beds. By sharing 
our evaluations with vendors we have enabled them to produce better 
products to meet critical scientific and national security missions. 
Our spending complements commercial R&D in IT which is focused on 
product development and on the demands of commercial applications which 
generally place different requirements on the hardware and software 
than do leading edge scientific applications.
    The Office of Science coordinates with other federal agencies to 
avoid duplication of efforts. In the areas where the Office of Science 
(DOE-SC) focuses its research--High End Computing and Large Scale 
Networking--DOE-SC co-chairs the relevant federal coordinating group. 
In addition to this mechanism, DOE-SC has engaged in a number of other 
joint planning and coordination efforts.

  <bullet> DOE-SC participated in the National Security community 
        planning effort to develop an Integrated High End Computing 
        plan.
  <bullet> DOE-SC and DOD co-chaired the HECRTF.
  <bullet> DOE-SC and NSF co-chair the Federal teams that coordinate 
        the engineering of Federal research networks and the emerging 
        GRID Middleware.
  <bullet> DOE-SC is a partner with DARPA in the High Productivity 
        Computing Systems project, which will deliver the next 
        generation of advanced computer architectures for critical 
        science and national security missions through partnerships 
        with U.S. industry.
  <bullet> DOE-SC works closely with NNSA on critical software issues 
        for high performance computing.
  <bullet> DOE-SC, DOE-NNSA, DOD-ODDR&E, DOD-NSA, and DOD-DARPA have 
        developed a Memorandum of Understanding to jointly plan our 
        research in high performance computing. This MOU will enable us 
        to better integrate our substantial ongoing collaborative 
        projects.
    High end computing is a key tool in carrying out Federal agency 
missions in science and technology, but the high end computer market is 
simply not large enough to divert computer industry attention from the 
much larger and more lucrative commerce and business computing sector. 
The federal government must perform the research and prototype 
development on the next generation of tools to meet those needs. This 
next generation of computers, however, might also serve to benefit 
industry.
    Mr. Chairman, high-performance computing provides a new window for 
researchers to understand the natural world with a precision that could 
only be imagined a few years ago. Research investments in advanced 
scientific computing will equip researchers with premier computational 
tools to advance knowledge and to help solve the most challenging 
scientific problems facing the Nation.
    With vital support from this Committee, the Congress and the 
Administration, we in the Office of Science hope to continue to play an 
important role in the world of scientific supercomputing.
    Thank you very much.
                                 ______
                                 
                                Appendix
                     office of science: who we are
    The Office of Science is the single largest supporter of basic 
research in the physical sciences in the United States, providing more 
than 40 percent of total funding for this vital area of national 
importance. It oversees--and is the principal federal funding agency 
of--the Nation's research programs in high-energy physics, nuclear 
physics, and fusion energy sciences.
    The Office of Science manages fundamental research programs in 
basic energy sciences, biological and environmental sciences, and 
computational science. In addition, the Office of Science is the 
Federal Government's largest single source of funds for materials and 
chemical sciences, and it supports unique and vital parts of U.S. 
research in climate change, geophysics, genomics, life sciences, and 
science education.
    The Office of Science manages this research portfolio through six 
interdisciplinary program offices: Advanced Scientific Computing 
Research, Basic Energy Sciences, Biological and Environmental Research, 
Fusion Energy Sciences, and High Energy Physics and Nuclear Physics.
    The Office of Science also manages 10 world-class laboratories, 
which often are called the ``crown jewels'' of our national research 
infrastructure. The national laboratory system, created over a half-
century ago, is the most comprehensive research system of its kind in 
the world. The 10 Office of Science laboratories are: Ames Laboratory, 
Argonne National Laboratory, Brookhaven National Laboratory, Fermi 
National Accelerator Laboratory, Thomas Jefferson National Accelerator 
Facility, Lawrence Berkeley National Laboratory, Oak Ridge National 
Laboratory, Pacific Northwest National Laboratory, Princeton Plasma 
Physics Laboratory and the Stanford Linear Accelerator Center.
    The Office of Science oversees the construction and operation of 
some of the Nation's most advanced R&D user facilities, located at 
national laboratories and universities. These include particle and 
nuclear physics accelerators, synchrotron light sources, neutron 
scattering facilities, supercomputers and high-speed computer networks. 
Each year these facilities are used by more than 18,000 researchers 
from universities, other government agencies and private industry.
    The Office of Science is a principal supporter of graduate students 
and postdoctoral researchers early in their careers. About 50 percent 
of its research funding goes to support research at 250 colleges, 
universities, and institutes nationwide.
    For more than half a century, every President and each Congress has 
recognized the vital role of science in sustaining this Nation's 
leadership in the world. According to some estimates, fully half of the 
growth in the U.S. economy in the last 50 years stems from federal 
funding of scientific and technological innovation. American taxpayers 
have received great value for their investment in the basic research 
sponsored by the Office of Science and other agencies in our 
government.
    Ever since its inception as part of the Atomic Energy Commission 
immediately following World War II, the Office of Science has blended 
cutting edge-research and innovative problem solving to keep the U.S. 
at the forefront of scientific discovery. In fact, since the mid-
1940's, the Office of Science has supported the work of more than 40 
Nobel Prize winners, testimony to the high quality and importance of 
the work it underwrites.
    Office of Science research investments historically have yielded a 
wealth of dividends including: significant technological innovations; 
medical and health advances; new intellectual capital; enhanced 
economic competitiveness; and improved quality of life for the American 
people.

    Senator Alexander. Thank you, Dr. Decker.
    Senator Bingaman, let me suggest I will take 5 minutes, you 
take 5, and we will go back and forth for a little while. I 
would like to perhaps aim that we end the hearing by 4 or 4:15. 
Would that be all right with you?
    Senator Bingaman. I do not know that I can stay that long, 
Mr. Chairman, but I will stay as long as I can.
    Senator Alexander. We will make sure you have plenty of 
time to ask questions while you are here because I am glad that 
you are here.
    Dr. Decker, I cannot speak for both Senator Bingaman and 
myself, but I think I can perhaps to this extent. We are trying 
to take a look a long way down the road here. For myself, I 
compliment the Department for its 20-year plan. Chet Atkins 
used to say in this life you have to be mighty careful where 
you aim because you might get there. So we have a 20-year plan 
for science. That is very helpful.
    That is the purpose of this legislation that we are 
introducing. We have in front of us a situation, as you have 
said and our other witnesses say, where the United States, 
which has relied upon science and technology for our standard 
of living to a great degree, has lost the lead in high-
performance computing and we need to get it back and we know 
how to get it back. So we have developed a piece of legislation 
here called the High-End Computing Revitalization Act of 2004 
that we believe would authorize the steps and authorize the 
funding, which Congress would then have to decide whether it 
had the money or not, along with the President. We believe 
these are the right steps.
    So I guess my first question to you is this. Does the 
administration support this legislation? Or if you do not, can 
you suggest improvements or changes that would make it a better 
path toward recapturing our lead in high-performance computing?
    Dr. Decker. Mr. Chairman, we certainly very much appreciate 
the support that is indicated in that bill for the Office of 
Science and for fixing this important issue. I think the 
activities that are laid out in the bill are definitely the 
right ones. There is not an administration position on this 
bill, to my knowledge, at this time, so I am not able to 
comment on specifics.
    Senator Alexander. Well, what I would like to do, as just 
one Senator, is to suggest to the Department and to the 
administration that this would be a good subject to be specific 
about. We know--and we will hear from other witnesses today--
that we can recapture the lead in high-performance computing. 
It is going to take specific goals. It is going to take some 
money. We have all been around long enough to know that the 
budget-setting priority has to begin somewhere and we are 
hoping to begin it here.
    A very important step was the $25 million that you pointed 
out, which the Congress added and the administration is now 
spending to begin to do this, but this legislation would 
authorize the appropriations for the Secretary of Energy for 
$150 million in the year 2005 on up to $170 million a year for 
the year 2009, some of that for ultra-scale scientific 
computing and $10 million for a software development center. I 
would like to see the administration add to its 20-year plan a 
budget for this year, for the next year, for the following year 
that would permit us to go forward.

    NOTE: S. 2176 has not yet been reported out of the Energy 
and Natural Resources Committee. As a matter of policy, OMB 
does not issue Statements of Administration Policy (SAPs) prior 
to the bill being reported out of committee because the 
reported version may differ from the introduced version. The 
DOE will request a SAP once the bill is reported.

    We are in a Presidential year and there will be a lot of 
back and forth over which political party deserves the most 
credit or blame for funding for research and development. I 
happen to think that as a Nation, both parties have done pretty 
well in some areas over the last several years, including the 
Bush administration. R&D funding for the National Institutes of 
Health is up 44 percent over the last 3 years, and we can go 
down through, the National Science Foundation, up 27 percent 
over the last 3 years.
    But as I have tried to point out, as others on this 
committee, we need to begin to do for the physical sciences 
what we have done in the health sciences. The physical science 
funding has been relatively flat or a little worse in the Bush 
years and in the Clinton years. So I think there is blame to go 
around and credit to go around on both sides of the aisle.
    What I would like to see us do is to say this is a very 
specific area in which it is extremely appropriate for the 
United States to be involved, for the U.S. Government to fund. 
We have these secret weapons in our country called research 
universities and national laboratories. No other country in the 
world has anything like it. They have a few, but it is one of 
the clear advantages we have. And it is remarkable, in fact, 
that we could fall behind in high-performance computing and 
then lay out a plan that within a few short years, by the year 
2008, clearly recapture--everyone concedes we can recapture--
that lead for a relatively modest sum.
    So you may be limited by OMB or Presidential budgets or 
other priorities in what you might be able to say today. It 
would be my hope that soon the administration could say that it 
fully supports this legislation, not just the objectives, which 
you said it did support, but that we could agree on some goals 
for authorization levels, or if these are not the right goals, 
maybe the administration could suggest other goals so we could 
be on a clear path and so that we, in a bipartisan way, can 
support implementation. This, after all, was No. 2 I believe on 
the Secretary of Energy's 20-year plan for where we hope to go 
with the physical sciences.
    Dr. Decker. Mr. Chairman, I can certainly take that message 
back to the Department and to the administration.
    Senator Alexander. Thank you, Dr. Decker.
    Senator Bingaman.
    Senator Bingaman. Thank you very much, Mr. Chairman.
    Let me just underscore what the chairman basically said on 
the importance of this. When I was in Japan, we did get a 
briefing by the director of the Japanese Earth Simulator. My 
strong impression--I believe my recollection is right--is that 
he said that they were doing some computing on that machine for 
various companies and others in this country, and in 
particular, I think he said Lawrence Livermore Lab had 
contracted with them to do some calculations, some computing. 
Are you familiar with that?
    Dr. Decker. I was not aware that Lawrence Livermore 
Laboratory was doing that. I know that they said that they 
would provide some opportunity for our researchers to use the 
Earth Simulator, but I do not know how much of that has been 
done. I certainly can find out and get back to you.
    [The information follows:]

    None of the DOE laboratories has contracted with the 
Japanese Earth Simulator Center for scientific calculations. 
There have been some visits by individual scientists from these 
laboratories, including one from an Earth Scientist at Lawrence 
Livermore National Laboratory, to evaluate the capabilities of 
the Earth Simulator for their particular classes of 
applications. In addition, there is a Memorandum of 
Understanding between the Earth Simulator Center and the 
National Energy Research Scientific Computing Center (NERSC) at 
Lawrence Berkeley National Laboratory, which is focused on 
joint activities in performance evaluation and benchmarking to 
improve our understanding of the factors that affect 
application performance on large computers.

    Senator Bingaman. I would appreciate that.
    Obviously, I commend the Japanese for the initiative they 
have shown and the leadership that they have demonstrated in 
this area. I also appreciate very much their willingness to 
take on advanced computing work for the United States, our own 
laboratories, and our own companies.
    But if you put this in the larger context, we have had a 
lot of debate around here about outsourcing. I am not opposed 
to outsourcing in all its various forms, but this is one area 
where I would prefer us not to have to outsource. I think it 
would be much better if we had the capability to do whatever 
computing we determine we need to do right here. I know that is 
your view, so I appreciate that.
    One other area I wanted to question you about is if we are 
successful and we go ahead and are able to increase funding in 
this area, make the investment necessary, and develop the 
computing capability necessary, how would that be accessed by a 
professor in my home State if we had a professor at New Mexico 
State or the University of New Mexico or a researcher or 
engineer in a private company? How would they access that 
computing capability if we are going to be paying for this with 
the taxpayer dollars? It is my view that it should be readily 
accessible to those who have a legitimate need for it and have 
a legitimate purpose to pursue with it.
    Dr. Decker. Senator, I agree with that. Certainly it is our 
intent with a leadership class machine to make it available on 
a peer-reviewed competitive basis. As you know, we operate a 
number of large scientific facilities in our national 
laboratories primarily. The access to those facilities is on 
the basis of proposals that are submitted by researchers, 
reviewed, and a decision made based largely on scientific 
merit. I think that is a model that applies probably with some 
modification to a leadership class machine.
    Senator Bingaman. Mr. Chairman, I could ask a series of 
questions, but I think we have made a good record here with Dr. 
Decker. I think he is clearly a strong proponent of doing more 
in this area, and clearly that is our intent with this 
legislation. So I will stop with that. Thank you.
    Senator Alexander. Thank you, Senator Bingaman. I agree 
with that.
    Dr. Decker, thank you very much for your presentation.
    We have five other witnesses from whom we would like to 
hear and we will now invite them to come to the table. We have 
five witnesses whose resumes are so distinguished, it would 
take most of our remaining time if I properly introduced them 
all. So let me give them a brief introduction in the order in 
which I will ask them to testify.
    Dr. Jeff Wadsworth is director of the Oak Ridge National 
Laboratory. Dr. Wadsworth, thank you very much for being here, 
and good to see you again.
    Dr. David Turek, vice president of Deep Computing for IBM. 
Thank you very much for coming.
    Dr. Daniel Reed is director of Renaissance Computing 
Institute, University of North Carolina at Chapel Hill. Dr. 
Reed, thank you for being here.
    Mr. Dimitri Kusnezov, director of Advanced Simulation and 
Computing of the National Nuclear Security Administration. 
Thank you very much for coming.
    Mr. Vincent Scarafino, manager of Numerically Intensive 
Computing of Ford Motor Company.
    You are in the right order. I got a little bit out of order 
there. So thanks to each of you for coming.
    Let me ask again, starting with Dr. Wadsworth and simply 
going across the row, in about 5 minutes each, can you give to 
Senator Bingaman and me and to our colleagues in the Senate as 
the Senator says, as we build a record and develop 
understanding of the importance of this, a picture of where we 
have been, what we are capable of doing, what we need to do to 
recapture the lead in high-performance computing, and what it 
will cost to get there? I am delighted that this brings us a 
perspective from a variety of areas in our country, from our 
laboratories, from our universities, from our private 
institutes, from other parts of the Federal Government, 
including national security. So, Dr. Wadsworth, we will begin 
with you.

    STATEMENT OF DR. JEFFREY WADSWORTH, DIRECTOR, OAK RIDGE 
               NATIONAL LABORATORY, OAK RIDGE, TN

    Dr. Wadsworth. Thank you, Mr. Chairman, Senator Bingaman. 
Thank you for the opportunity to join you today. My name is 
Jeffrey Wadsworth and I am the Director of the Department of 
Energy's Oak Ridge National Laboratory. I am particularly 
pleased to be able to provide this testimony on the role of 
high-performance computing in addressing major scientific 
challenges. It is a subject I care deeply about.
    For many of us, it has become clear that computational 
simulation has joined theory and experiment as the third leg of 
science, and as with theory and experiment, we need 
increasingly powerful tools to deal with the ever increasingly 
difficult problems we want to solve. There are at least four 
types of problems that we need computing for. At least.
    One of them is the type of problem that just cannot be 
solve experimentally. Predicting climate change is the premier 
example.
    There is a second class where we may choose not to do the 
experiment for policy reasons; underground nuclear testing 
being the prime example. And that led to the development of the 
first teraflop class computers in this country as we solved 
that problem without doing those experiments.
    A third class of problems is our desire to design large, 
complicated structures for economic benefit, and I think we 
will hear about that, but certainly the Boeing 777 was designed 
using a large amount of computing capability rather than 
building prototypes. So that is a third class of problem.
    A fourth class is that we can accelerate scientific 
discovery. If we can accurately simulate structures at the 
atomic level, this opens the way to solving and designing new 
materials, solving biological problems with a confidence we did 
not have before using computing. I am pleased to tell you that 
in our own at Oak Ridge National Lab in certain industrial 
materials, computing is leading experiment. Our simulations are 
now leading the experiments we choose to do because of the 
accuracy of the simulations, and that can lead us in new 
directions.
    But in high-performance computing, it is well known that if 
you are standing still, you are falling behind. If you are 
standing still, you are falling behind. And the Nation has 
invested in powerful supercomputers for classified work but 
that similar investment in computing for unclassified work has 
not happened and we have fallen behind. And as described 
earlier, in 2002 the Japanese surprised the world with a 
computer that at that time had more power than our Nation's 20 
top unclassified computers. Those 37 trillion calculations per 
second surpassed that total, and America no longer leads in 
high-performance computing.
    We want to regain that leadership, as do you, and the 
foundation for addressing this issue is in place. Last month 
the Secretary of Energy announced that Oak Ridge National Lab 
and its partners had been selected to establish the National 
Leadership Computing Facility and to reinvigorate our country's 
ultrascale computing program.
    This facility will bring together world-class researchers. 
It will bring an aggressive, sustainable path for hardware, an 
experienced operational team, a strategy for delivering 
capability computing, and modern facilities connected to the 
national computing infrastructure through state-of-the-art 
networking.
    As we just heard, this new facility will be open to the 
scientific community. We will place the world's best scientific 
application codes and computational specialists at the service 
of researchers who are attacking problems that can only be 
solved with this large computing capability. And these teams 
will be selected through a competitive peer review.
    We have made investments at the laboratory that support the 
Nation's need for this type of computing. We used private 
funding to build a new computational facility which has 1 
acre--that is 40,000 square feet--of world-class computing 
space to house the next generation supercomputers. In all of 
these areas, we are partnering not only with the Federal 
Government, but with industry, with universities, and with 
other laboratories. And I would like to mention that the State 
of Tennessee invested $10 million in a joint institute for 
computational sciences at Oak Ridge, and this building anchors 
a partnership between the laboratory and the University of 
Tennessee that is being expanded to include other universities 
and industry. Every dollar received from now on will be devoted 
to developing the supercomputer, using it for scientific 
research because the facility is in place.
    This new machine should be larger and more powerful than 
the Japanese Earth Simulator. Being the largest is not the only 
goal, but it certainly is a measure of our progress that we 
expect and we expect this computing power to help revolutionize 
our scientific research and solve some of our most challenging 
technical problems. We have heard about some of them: climate 
change at the local, regional level, energy security through 
fusion plasmas and the delivery of electrical power, and new 
avenues of research in biology, pharmaceuticals, chemicals, 
industrial materials, and so on.
    We cannot afford to miss out on these opportunities. Half 
of our economic growth in the past few decades can be traced to 
our advances in science and technology. High-performance 
computing played a critical role and will increase in its 
importance in the next several decades.
    So I would like to commend the committee for putting in the 
proposed bill, and I am happy to discuss the levels of funding 
that would be needed to compete with the best computers in the 
world.
    [The prepared statement of Dr. Wadsworth follows:]
   Prepared Statement of Dr. Jeffrey Wadsworth, Director, Oak Ridge 
                   National Laboratory, Oak Ridge, TN
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to join you today as you consider a topic that many believe 
is critical to America's ability to retain world leadership in science 
and technology.
    My name is Jeffrey Wadsworth, and I am director of the Department 
of Energy's Oak Ridge National Laboratory. I am pleased to provide this 
testimony on the role of high-performance computing in addressing grand 
scientific challenges.
    In many areas of science, computational simulation--a means of 
scientific discovery that employs a computer to simulate a physical 
system--has attained peer status with theory and experiment. Scientific 
computing has advanced our understanding of the fundamental processes 
of nature (e.g., fluid flow and turbulence, molecular structure and 
reactivity, drug-receptor interactions) and of complex natural 
phenomena (weather patterns) and engineered systems (aircraft and 
automobiles). Computers are essential for the advanced signal and image 
processing that underpin modern communications and medical diagnostic 
systems.
    As the complexity of the system being simulated increases, however, 
so does the computing power needed for an accurate simulation. Just as 
we have built larger experimental devices and developed more complex 
theories to understand the most demanding scientific problems, we find 
that we need high-performance computing to deliver solutions.
    This need is particularly acute for those problems that simply 
cannot be solved experimentally. Climate change is a classical example.
    There are also problems that we choose not to solve experimentally, 
for ethical or policy reasons. The most familiar example of such a 
challenge emerged after the decision to suspend underground testing of 
nuclear weapons. Deciding not to ``experiment'' with actual weapons 
meant that we needed to find another way to measure and understand 
forces and reactions of enormous magnitude. Part of the solution 
required supercomputing at a previously unimaginable scale, and to meet 
this need we have constructed supercomputers that can simulate a 
nuclear device by performing literally trillions of calculations per 
second.
    A third class of problems involves the economical design of large 
structures by using a computer to avoid costly experimentation. During 
the development of the Boeing 777, for example, it was both physically 
and financially impossible to build and test prototypes. The solution 
was a computer simulation that provided a safe and cost-effective new 
product for American industry.
    Finally, we can use supercomputers to accelerate scientific 
discovery. It is now feasible to accurately simulate structures at the 
atomic level in a way that can lead to the design of new materials and 
solve biological problems such as protein folding and cell signaling. 
In recent work at ORNL on silicon nitride, a ceramic used in a number 
of industrial applications such as turbochargers and ball bearings, 
simulation has led experiment--that is, our ability to model the 
behavior of this material at the atomic level is driving the structural 
engineering required to develop the next generation of ceramics.
    In the field of high-performance computing, however, there is a 
saying that if you are standing still, you are really falling behind. 
Our defense laboratories in America have done a marvelous job of 
developing supercomputers for classified weapons research, but as a 
nation we have not made a similar investment in supercomputing for 
unclassified scientific research. Not surprisingly, our international 
competitors took advantage of our stagnation.
    In the spring of 2002, the Japanese surprised the world with the 
announcement of a supercomputer that could perform at a peak power of 
37 teraflops, or 37 trillion calculations per second. Put in 
perspective, the Japanese machine was more powerful than the 20 largest 
unclassified computers combined in the United States. Without question, 
America had surrendered our leadership in high-performance computing. 
The potential consequences to our nation's prestige, to our economic 
vitality, and to our historic leadership in the international 
scientific community were profound.
    Mr. Chairman, our discussion today addresses America's opportunity 
to regain our leadership in high-performance computing. We commend the 
Chairman and the Committee for recognizing this issue of national 
importance.
    The foundation has already been laid for this initiative. Last 
month the Secretary of Energy announced that a team led by Oak Ridge 
National Laboratory was the winner of a competition to establish the 
National Leadership Computing Facility (NLCF), with the mission of 
reinvigorating America's ultrascale computing program.
    The NLCF brings together world-class researchers from national 
laboratories, universities, and industry; a proven, aggressive, and 
sustainable hardware path; an experienced operational team; a strategy 
for delivering true capability computing; and modern computing 
facilities connected to the national infrastructure through state-of-
the-art networking to deliver breakthrough science. Combining these 
resources and building on expertise and resources of the partnership, 
the NLCF will enable scientific computation at an unprecedented scale.
    As is the case for other large-scale experimental facilities 
constructed and operated by DOE's Office of Science, the NLCF will be a 
world-class resource open to the international research community. At 
typical experimental facilities, scientists and engineers make use of 
``end stations''--best-in-class instruments supported by instrument 
specialists--that enable the most effective use of the unique 
capabilities of the facilities. At the NLCF, we will organize 
``computational end stations'' that offer access to best-in-class 
scientific application codes and world-class computational specialists. 
Multi-institutional, multi-disciplinary teams will undertake scientific 
and engineering problems that can only be solved on the NLCF computers. 
These computational end stations will be selected through a competitive 
peer review process.
    We are delighted to have been selected to attack this 
extraordinarily important problem. Oak Ridge has been a leader in 
scientific computing throughout its history, and during the past 
several years our Center for Computational Sciences has addressed the 
challenges of scientific computing through the evaluation of new 
architectures and the development of the system software, 
communications protocols, visualization systems, and network interfaces 
that must work together with the hardware in solving problems. The 
Center is a principal resource for DOE's Scientific Discovery through 
Advanced Computing program, which has created partnerships between 
computing professionals and researchers throughout the nation to build 
applications software that makes the most efficient use of the 
available computing power. Many of these partnerships involve the more 
than 200 computational scientists who work at ORNL.
    We have also made a substantial investment at ORNL that provides a 
unique national resource for attacking the challenges of high-end 
computing. Using private funding, we have constructed a brand-new, 
130,000-square-foot state-of-the-art computational facility in Oak 
Ridge. This facility contains a full acre of floor space designed to 
accommodate next-generation supercomputers and their requirements for 
electric power and cooling.
    To make our computing resources available to the scientific 
community and to enhance the sharing of data among the nation's leading 
research institutions, we have developed a variety of high-speed 
networks, and we are playing a lead role in establishing DOE's Science 
UltraNet.
    In all of these areas, we are working with a number of partners in 
industry, at universities, and at other national laboratories. Of 
particular note, the State of Tennessee invested $10 million to 
construct a facility at ORNL that houses the Joint Institute for 
Computational Sciences. This new 52,000-square-foot building anchors a 
unique partnership between the Laboratory and Tennessee's flagship 
university that is being expanded to include the broader university 
community.
    Thanks to these efforts, we have in place the infrastructure and 
personnel at Oak Ridge National Laboratory to build a 100-teraflops 
machine by 2006 and a 250-teraflops machine by 2008 and to use these 
machines to deliver scientific computation at an unprecedented scale.
    To stress what may already be apparent, thanks to the investment of 
Federal, State, and private resources at ORNL, no funds will have to be 
spent on building an expensive new facility. Every dollar can be 
devoted to the development of a supercomputer and the mission of 
scientific research.
    While we anticipate that the size and efficiency of this American 
supercomputer will surpass the Japanese machine, merely being the 
largest is not and should not be our only goal.
    Just as surely as information technology revolutionized America's 
economy in the 1990s, high-performance computing could help 
revolutionize basic scientific research in ways that were unimaginable 
just a few years ago.
    If time permitted, I could share with the committee a lengthy list 
of potential scientific breakthroughs directly related to the kinds of 
policy issues that confront the Senate every day. As you discuss clean 
air, we will be able for the first time to manage the data needed to 
understand climate changes on global, regional, and local scales.
    As you discuss America's energy challenges, we can build models 
that help us determine how best to control a fusion plasma and reliably 
deliver power across the national electric grid. In similar fashion, 
high-performance computing can open up avenues of research for 
pharmaceuticals, chemicals, industrial materials, and a host of other 
areas vital to the health of our citizens and the strength of our 
economy.
    Indeed, as I noted earlier, we have already reached the point at 
which computation is integral to research in virtually every field of 
endeavor. The two principal tools of scientific discovery--theory and 
experiment--have been joined by a third: modeling and simulation.
    As a nation, we have done a great job in investing in the health 
sciences. I want to thank Senator Alexander and Senator Bingaman for 
their leadership in calling for a comparable investment in the physical 
sciences, which underpin many of the remarkable advances in the life 
sciences achieved during the last century.
    The importance of high-performance computing to both the physical 
and the life sciences cannot be overstated: the convergence of 
nanoscale science and technology, computing and information technology, 
and biology at the ``nano-info-bio'' nexus affords remarkable 
opportunities for discovery that we cannot afford to miss out on. It is 
now generally accepted that half of our economic growth over the past 
few decades can be traced directly to advances in science and 
technology. High-performance computing played a critical role in these 
advances, and it will continue to do so as we extend the frontiers of 
science.
    An investment in high-performance computing would enable the 
Department of Energy to move forward with plans to attain the 
ultrascale scientific computing capability needed to realize its goals 
in nanoscience, biology, fusion science, physics, chemistry, climate 
simulation and prediction, and related fields.
    In summary, these investments would make it possible for America to 
regain our leadership role in high-performance computing and lay the 
groundwork for addressing some of the nation's greatest scientific 
challenges.
    Mr. Chairman, I commend you and your colleagues for your vision and 
your understanding of the challenges facing the nation's research 
community.
    Thank you. I would be happy to answer any questions that you or 
other members of the committee may have.

    Senator Alexander. Thank you, Dr. Wadsworth.
    Mr. Turek.

 STATEMENT OF DAVID TUREK, VICE PRESIDENT, DEEP COMPUTING, IBM 
                 CORPORATION, POUGHKEEPSIE, NY

    Mr. Turek. Mr. Chairman, Senator Bingaman, thank you for 
inviting me here today. My name is David Turek. I am vice 
president of Deep Computing for IBM Corporation.
    I commend the committee to helping to ensure the continued 
leadership of the United States in high-performance computing, 
and I would like to thank you personally for sponsoring S. 
2176, which demonstrates the Federal commitment to supporting 
high-end computing research and development.
    I would like to make two points today. One, high-
performance computing is an essential ingredient for U.S. 
scientific and economic competitiveness, and second, the role 
of government in facilitating partnerships between the 
Government and industry is critical to further advancing high-
performance computing. The Federal Government has had a long 
and outstanding tradition of support for the advancement of 
high-performance computing. This has clearly well served 
diverse agency and departmental missions directly. Federal 
funding in high-end computing has also provided a stimulus for 
innovative computing design which has diffused more broadly 
into the commercial marketplace over time as well.
    The tangible benefits that have accrued have been 
significant. Today our consumer products are better designed 
and more abundant. Our medical diagnostics and therapeutics are 
superior. Our ability to analyze the risk of financial 
instruments takes place at a pace never before imagined. Our 
understandings of the origins of the universe have developed to 
an extraordinary extent, and even our movies employ fantastic 
synthetic images and scenes that entertain an amaze in ways 
unimaginable even a decade ago.
    In essence, then commercial deployment of high-performance 
computing has become a vehicle for competitive advantage. As a 
consequence, demand for this level of technology has grown 
dramatically, creating the success that underlies a 
considerable level of research and development performed by 
leading high-performance computing companies.
    Today we are also beginning to witness the emergence of 
small, highly creative and skilled companies that are choosing 
to compete using high-performance computing technology. IBM has 
implemented a number of supercomputing on-demand facilities, 
accessible to customers for short periods of time over the 
Internet to meet this new need. This accelerates the diffusion 
of technology into some of the most competitive enterprises in 
the economy, the small and medium business. This is a 
proposition that we would not have readily imagined a decade 
ago, but it has elevated the competitiveness of U.S. industries 
on the international stage.
    As the Government outlines its strategy for high-
performance computing, I am sure you realize the enormous 
impact that you have on the entire Nation in dealing with the 
changes and challenges facing us in science, business, and 
homeland security. The careful choices we make through our 
partnerships and initiatives can significantly enhance our 
competitiveness and preparedness on all fronts.
    It is through the partnership between the Federal 
Government and computer manufacturers that many of the key 
advances in high-performance computing have become ubiquitous, 
and it is one of the principal ways that IBM and other 
companies achieve and maintain technological leadership. For 
example, the Department of Energy has contracted with IBM to 
build the two fastest supercomputers in the world, the Advanced 
Simulation and Computing Project Purple, based on IBM's power 
technology, and Blue Gene/L, which together have a combined 
peak of 460 trillion calculations per second, or teraflop, at 
Lawrence Livermore National Laboratories, effectively 10 times 
the power of the Earth Simulator today. Recently the DOE has 
also announced that IBM will work with the ASCR, or the 
Advanced Scientific Computing Research program, to build a Blue 
Gene/L system at the Argonne National Laboratory.
    These projects are shaping our approach to system design in 
terms of systems scaling, tools, system availability and 
usability to a degree never before imagined. The rate and pace 
of improvement is truly unprecedented, and much of the credit 
must go to the demanding requirements of customers like 
Lawrence Livermore National Laboratory and Argonne National 
Laboratory.
    It is also important for me to address the state of the 
U.S. supercomputing industry and its ability to deliver on the 
promise of enhanced scientific and commercial competitiveness. 
Earlier this week, the semiannual report from the top 500 
organizations was published. The publication listed top 500 
supercomputers in the world. It is important to note that out 
of 500 systems, 456 come from U.S. companies. IBM supplies 224 
of those. U.S. computer companies account for 89 percent of the 
total compute power embodied in that list, and the U.S. economy 
consumes more than 55 percent of the aggregate compute power. 
This is five times greater than the aggregate compute power 
consumed by any other country in the world from that list of 
500. Our industry is alive, well, and serving the needs of the 
United States to an unmatched degree.
    Finally, as we look out in time over the next 5 years, we 
expect certain trends to continue. Prices will continue to 
decline, and the community of potential customers in 
scientific, commercial, and research enterprises and 
institutions for high-performance computing will expand as a 
result. Evolved models of delivery based on on-demand 
principles will become more prevalent. Systems will become 
progressively more physically compact, easy to use, and manage, 
and new applications will stretch our thoughts on systems 
architecture in currently unanticipated ways. We look forward 
to the Federal Government's continued role in advancing high-
performance computing.
    Thank you for the opportunity to speak today.
    [The prepared statement of Mr. Turek follows:]
  Prepared Statement of David Turek, Vice President, Deep Computing, 
                            IBM Corporation
    Good morning, Chairman Alexander and members of the Energy 
Subcommittee. My name is David Turek and I am Vice President, Deep 
Computing for the IBM Corporation. I have responsibility for providing 
the products, solutions and services offerings designed to meet the 
high performance computing needs of customers in market segments as 
diverse as financial services, business intelligence, scientific 
research, medical imaging, petroleum exploration, pharmaceuticals, 
manufacturing and industrial design and digital media.
    Thank you for inviting me here today. I commend you and the 
committee for helping to ensure the continued leadership of the U.S. in 
high performance computing.
    First, I'd like to thank Senators Alexander and Bingaman for 
sponsoring S. 2176. IBM is fully supportive of the basic tenets of this 
bill: 1) advancing high end computing in the U.S.; 2) advancing 
hardware and software development through an ultrascale computing 
program for scientific research and development; and 3) supporting the 
DoE's role in advancing high performance computing, especially in the 
area of nonclassified scientific discovery.
    I believe that it is critical to extend U.S. leadership in high 
performance computing--it is an increasingly important tool 
facilitating scientific discovery, business competitiveness, and 
homeland security in a rapidly changing world. Indeed, the, scientific 
and engineering research communities are increasingly accepting the two 
main supercomputing activities--simulation and data analysis--as two 
new pillars for discovery, expanding beyond the traditional activities 
of theory and experimentation. Through the pursuit of a computing 
technology to serve diverse agency missions, the federal government has 
provided a stimulus for innovative computing design that has often, 
over time, diffused more broadly into the commercial marketplace. The 
process of innovation and diffusion has been active for decades and the 
results have been cumulative and profound. We can all remember a time 
when the concept of supercomputing was restricted to a narrow community 
of users, extraordinarily skilled and extraordinarily financed to 
support the operation and acquisition of expensive and exotic 
technology. Over time, as the inexorable decline in cost of computing 
progressed, the financial impediments to supercomputing also declined 
and the community of potential users expanded. Financial accessibility 
enabled exploration and experimentation with supercomputing in 
applications that were unanticipated and novel in many wonderful ways. 
People, enterprises, and institutions which had previously been unable 
to afford access to this type of technology became able to do so. 
Creativity blossomed and we began to see the deployment of 
supercomputers in a broad array of industries outside the domain of the 
classic large scale research institutions. Commercial deployment of 
supercomputing became a vehicle for competitive advantage, generating 
significant commercial demand for supercomputing and creating the 
economic circumstances that drive the considerable level of research 
and development prevalent among the leading supercomputing companies we 
observe today.
    Proliferation of supercomputing, enabled in part by affordability, 
has created cadres of sophisticated users across the entire portfolio 
of industries served. Many of these people have followed their 
entrepreneurial instincts and have started or joined new companies, 
some of modest size, to which they have brought their knowledge of the 
value and application of supercomputing. The consequence is that today 
we are beginning to witness the emergence of small, highly creative and 
skilled companies that are choosing to compete by developing 
applications based on supercomputing technology. While it may be true 
that many of these companies still find conventional access to 
supercomputing limited by concerns of affordability or limited in-house 
operational expertise there are new ideas being deployed in the 
marketplace that are beginning to ameliorate these difficulties.
    IBM has implemented a number of on demand supercomputing facilities 
accessible to customers for short periods of time via the internet. We 
call this Deep Computing Capacity on Demand. The aggregate compute 
power in one facility in New York is roughly equivalent to the 4th most 
powerful supercomputer in the world in terms of the recently published 
TOP500 list. Yet customers with less than 100 employees in total can 
access this system for short periods of time to compete with large 
companies in areas like therapeutic drug design, animation, and 
petroleum exploration. The ability to proliferate supercomputing into 
small and medium size companies through mechanisms like IBM's on demand 
centers enhances the competitiveness of entire industries in ways never 
before imagined.
    As government outlines its strategy for high performance computing, 
I am sure you realize the enormous impact that you can have on the 
entire nation in dealing with the ongoing changes and challenges that 
we face in leveraging economic development and spurring free markets, 
growth and innovation. The U.S. is experiencing increasing competition 
from nations worldwide. Our innovativeness can establish our continued 
competitive standing in the world and assure the advancements necessary 
to maintain our standard of living for generations to come. High 
performance computing is an essential element in our effort to compete 
worldwide. While IBM and many other companies have strong research 
programs, the federal government is the key to making certain that 
basic research is done today to ensure tomorrow's inventions.
The High-End Computing Revitalization Act of 2004
    The High-End Computing Revitalization Act of 2004 demonstrates that 
the federal government would like to extend its commitment to support 
high-end computing research and development.
    This is critically important because in addition to meeting its own 
agency mission requirements, federal funding has traditionally seeded 
high risk research and enabled the critical university research 
necessary to advance high performance computing and other important 
areas in information technology. This investment in research has 
complemented the financial risks taken by the firms in our industry. It 
has enabled the development of technologies at a faster pace than could 
be accomplished by the risk capital of private industry by itself. As a 
result, innovation has accelerated and new technologies which provide 
competitive advantage on a national scale across private industry and 
research institutions are introduced much more quickly than would be 
possible without federal funding.
The partnership between the Federal government and the computer 
        manufacturers.
    The partnership between the federal government and computer 
manufacturers has been a key driver in advancing high performance 
computing and making it more ubiquitous. I would, therefore, like to 
address this in three ways: First, why high performance computing is 
important; second, the importance of the partnerships that exist 
between IBM and the DoE; and third, the five year outlook for high 
performance computing.
                importance of high performance computing
    High performance computing (or supercomputing) provides the means 
to solve problems that appeared to be unsolvable by conventional means, 
to solve hard problems with extraordinary speed, and to plumb the 
depths of complex problems to provide insights never before realized. 
IBM supercomputers, for instance, have been platforms for analysis in 
areas such as modeling transportation routes through congested urban 
areas for the purpose of efficient delivery of goods and services, 
identity theft prevention, pharmaceutical development, weather 
forecasting, disease research, petroleum discovery, digital animation, 
financial services, and basic research on materials and scientific 
phenomena.
    The consequence of such supercomputing applications are manifold: 
our consumer products are better designed, cheaper and more abundant, 
our medical diagnostics and therapeutics are superior, our ability to 
analyze the risk of financial instruments takes place at a pace never 
before imagined, our understanding of the origins of the universe is 
developed to an extraordinary extent, and even our movies employ 
fantastic synthetic images and scenes that entertain and amaze in ways 
unimaginable even a decade ago. To a substantial degree, these types of 
benefits have accrued as a result of the relentless decline in 
computing costs and have enabled a broader community of users to get 
access to high performance computing capabilities. But we must take 
into account that not all companies or institutes have equivalent 
financial or business circumstances: if access to supercomputing is an 
important ingredient to maintaining or amplifying scientific or 
business competitiveness, we must contemplate a variety of mechanisms 
by which access to supercomputing can be made available.
    As previously mentioned, we have a service called IBM Deep 
Computing Capacity on Demand, which enables customers to access IBM 
supercomputing power over the Internet without the costs and management 
responsibilities of owning their own supercomputer. Customers can:

  <bullet> easily tap into massive amounts of supercomputing power that 
        could be otherwise unaffordable
  <bullet> rapidly deploy supercomputing capacity in response to urgent 
        business opportunities
  <bullet> pay for supercomputing capacity on a variable cost basis, 
        avoiding large up-front capital outlays and long term fixed IT 
        cost commitments
  <bullet> lower overall supercomputing ownership and operating costs
  <bullet> take advantage of a scalable, highly secure and highly 
        resilient on demand operating environment

    This approach to providing access to supercomputing resonates with 
many customers because they pay for what they use, they do not have to 
worry about technological obsolescence nor housing a supercomputer. 
This is an important example of how supercomputing, as a means to 
competitiveness, can be more broadly propagated throughout the 
marketplace.
    But access is not solely a function of affordability; skill within 
an enterprise or institution also plays a critical role in terms of the 
ability to exploit the power of supercomputing. To that end, IBM has 
begun the Productive, Easy to use, Reliable Computing Systems (PERCS) 
project, one of three projects under Phase II of DARPA's High 
Productivity Computing Systems (HPCS) program. HPCS is a long-term 
investigation of a range of issues that define the overall value that a 
user obtains from a computing system, including performance efficiency, 
scalability, robustness, and ease of use. The HPCS program emphasizes 
groundbreaking, high-risk/high-reward research with a close eye on 
commercialization prospects. IBM is partnering with multiple 
universities and Los Alamos National Laboratory in this project.
    I would also like to address the general state of the U.S. 
supercomputing industry and its ability to deliver on this promise of 
enhanced scientific and commercial competitiveness. Earlier this week, 
the semi-annual report from the TOP500 organization was published. This 
publication lists the top 500 supercomputers in the world, ordered by 
sustained performance on a standard benchmark. Out of 500 systems, 456 
come from U.S. companies with IBM supplying 224 of the 
total.U.S.computer companies account for 89% of the total compute power 
ascribed to these 500 systems. The U.S. economy consumes more than 55% 
of the aggregate compute power generated by the computers on this list 
which is five times greater than the compute power consumed by any 
other country in the world. Our industry is alive, well, and serving 
the needs of the U.S. economy to an unmatched degree. If you inspect 
this list, you will note that many of the industries I have previously 
mentioned are well represented.
                       importance of partnerships
    An important means by which U.S. supercomputing companies maintain 
technological leadership is through partnerships with some of our most 
sophisticated customers. For purposes of this hearing, I will primarily 
discuss our partnerships with the U.S. Department of Energy (DoE) which 
have been notable in terms of the extent to which DoE computational 
requirements have impacted our system designs.
    DoE has contracted with IBM to build what will soon be the two 
fastest supercomputers in the world, ASC (Advanced Simulation and 
Computing) Purple, based on our high end POWER systems, and Blue Gene/
L, based on our low power embedded POWER processors, together they have 
a combined peak speed of 460 trillion calculations per second 
(teraflops) at Lawrence Livermore National Laboratory. The ASC POWER 
system will be used for simulation and modeling in the U.S. nuclear 
weapons mission and Blue Gene/L will be focused on enhancing ASC 
scientific simulations and providing ASC researchers with a cutting-
edge tool for computational science. The ASC program has been extremely 
beneficial in its mandate to manage the nuclear stockpile as well as in 
advancing high performance computing.
    We will also work with the ASCR (Advanced Scientific Computing 
Research) program to build a 5-teraflop Blue Gene/L machine at the 
Argonne National Laboratory. That marks the third announced 
installation of Blue Gene/L, after the Lawrence Livermore National 
Laboratory system and ASTRON, a radio telescope project in Netherlands. 
Two Blue Gene/L prototypes have been ranked among the most powerful 
supercomputers in the world today, ranking number four and eight in the 
Top500 list announced yesterday in Heidelberg. The Blue Gene/L at 
Argonne National Laboratory will be part of the DoE Office of Science 
Leadership Class RFP.
    The projects that we are executing in partnership with the DoE are 
shaping our approach to system design in terms of system scaling, 
tools, system availability and usability to a degree never before 
attempted. At the end of 1999 the most powerful supercomputer in the 
world was about 3 teraflops; by the middle of 2005 the Blue Gene system 
at Lawrence Livermore National Laboratory will be 100 times more 
powerful and it will incorporate a host of novel technologies and 
design ideas motivated entirely by the desire to build a system of this 
class of computational capability at an affordable price. The rate and 
pace of improvement is truly unprecedented and much of the credit is 
due to the demanding requirements of, and strong partnerships with 
customers like Lawrence Livermore National Laboratory.
                           five year outlook
    As we look out in time over the next five years we expect certain 
trends to continue: prices will continue to decline and a broader 
community of potential customers will obtain access to supercomputing 
as a result; evolved models of delivery based on on-demand principles 
will become more prevalent; systems will become progressively more 
physically compact, easy to use and manage; and new applications will 
emerge in importance that will stretch our thoughts on system 
architectures in currently unanticipated ways. It is imperative that 
our industry, sustain and amplify the utility of supercomputing as we 
make technological advances through this period. We must not create 
obstacles that will block the use of new technologies. While we stretch 
towards the future we must be mindful of the past, so that the 
investments our customers have made in training and application 
development are not wasted. For example, when we set out to design the 
Blue Gene system in late 1999, one of its goals was that applications 
written over the intervening years be portable to this system at the 
time of its debut. Thus the radical improvements in performance and 
price performance embodied in the Blue Gene system are perfectly 
accessible to applications written over the last fifteen years on a 
wide variety of cluster and massively parallel processor (MPP) systems 
without, for the most part, any modification. The introduction of new 
technologies must always make accommodations to the burdens levied on 
users so that the cost of transitioning to the technology does not 
dominate the benefits of using the technology.
    Within IBM we are pursuing multiple design paths built around a 
handful of guiding principles: First, although the requirements of the 
industry are extraordinarily diverse, the fundamental approach to 
supercomputing will remain wedded to principles of parallel computing. 
Second, from an implementation perspective this need will be 
accommodated with ``scale-out'' or cluster models of computing as well 
as ``scale-up'' or symmetric multiprocessor (SMP) models of computing. 
As is the case today, many customers will deploy both models 
simultaneously to accommodate the diversity of computational needs they 
encounter. Third, the centerpiece of our strategy is our POWER 
architecture. It enables models of parallelism at a variety of price 
and capability points to better accommodate the broad needs of our 
customers. Fourth, we will complement our product portfolio with 
offerings based on industry standard commodity technologies. Fifth, we 
will continue to embrace open standards. And sixth, all of our design 
decisions will be driven by customers and market based opportunities.
                               conclusion
    High performance computing requires continued advancement to handle 
the increasing complexity, scale and scope of challenges arising in 
industry, government, and the scientific community and solve 
consistently larger and more complex problems more quickly and at lower 
costs. The application of high performance computing has allowed us to 
better understand the complexities of scientific discovery and 
business-responding to the challenges of national security; 
environmental impacts; designing large aircraft; simulating critical 
medical procedures; designing new pharmaceutical drugs; and more. In 
addition, the range of uses of these tools is being extended as they 
become progressively more affordable and accessible. It is therefore 
critical for the U.S. government to develop and fund a creative and 
productive high performance computing environment and strategy to help 
enable problem-solving tools for the significant challenges that lie 
ahead.

    Senator Alexander. Thank you, Mr. Turek.
    Dr. Reed.

    STATEMENT OF DR. DANIEL A. REED, DIRECTOR, RENAISSANCE 
  COMPUTING INSTITUTE, UNIVERSITY OF NORTH CAROLINA AT CHAPEL 
                     HILL, CHAPEL HILL, NC

    Dr. Reed. Thank you. Good afternoon, Mr. Chairman and 
Senator Bingaman. I am Daniel Reed. I am director of the 
Renaissance Computing Institute, a collaborative venture of the 
University of North Carolina, Duke, and North Carolina State 
University. I also chaired the recent community input workshop 
for the High-End Computing Revitalization Task Force.
    In response to your questions, I would like to make a few 
brief points today.
    First, high-end computing systems share many features with 
other large-scale scientific instruments. However, I think 
there is one unique aspect that distinguishes them from other 
instruments, and that is their universality as an intellectual 
amplifier. Powerful new telescopes advance astronomy but not 
material science. Powerful new particle accelerators advance 
high energy physics, but not genetics. In contrast, high-end 
computing advances all of science and engineering because all 
disciplines benefit from high resolution model predictions, 
from theoretical validations, and from experimental data 
analysis.
    Over 2 centuries ago, the English scientist Sir Humphrey 
Davy could well have been speaking about high-end computing 
when he said: ``Nothing tends so much to the advancement of 
knowledge as the application of a new instrument.'' In a 
phrase, success accrues to the talented with access to the most 
powerful tools.
    At several recent workshops, researchers have made the case 
for sustained performance 50 to 100 times beyond that available 
on current systems to achieve disciplinary frontiers in 
physics, astronomy, chemistry, biology, and other disciplines. 
However, beyond these disciplinary frontiers lie even greater 
interdisciplinary challenges. For example, in hurricane 
preparedness, multidisciplinary computations must fuse models 
of ocean and atmosphere, of transportation and 
telecommunications systems, and of social dynamics.
    Today, computing pervades all of science and it is only 
slightly hyperbolic to say that today science is computational 
science.
    This brings me to my second point, the need for ongoing 
balanced investment in high-end architectures to continue to 
advance this frontier. The explosive growth of commodity 
clusters has reshaped high-end computing. However, not all 
applications map efficiently to this model. We substantially 
under-invested in my judgment in the research needed to develop 
a new generation of high-end architectures. The consequence of 
this is limited support for many important scientific and 
national defense applications.
    This leads me to my third point, the critical importance of 
software and the centers necessary to make these systems 
useful. Today scientific applications are developed with 
software tools that are often crude compared to those used to 
develop many desktop applications. We need new programming 
models to simplify application development and to reduce 
software maintenance costs.
    Hence, I was pleased that S. 2176 includes support for a 
high-end computing software development center. Such a center 
is an institutional mechanism for evaluating new approaches and 
supporting valuable software tools over the decade or more 
often needed to maximize their efficacy.
    How then in this context do we maintain competitiveness and 
sustain communities for the long term? High-end computing, as 
many have noted, is an increasingly international activity with 
all the associated competition for intellectual talent. To 
attract and retain the best and brightest talent, we must 
recognize that computational science requires long-term 
coordinated support, and that means funding for the staff, the 
students, the post-doctoral research associates, and the 
faculty and laboratory researchers that use these systems.
    Finally, in this context, what is the appropriate role for 
the Federal Government? Many of the non-recurring engineering 
costs necessary to design high-end systems specifically 
targeted to scientific and government needs are not necessarily 
repaid by commercial sales. Hence, I believe we must rethink 
some of our support for models of high-end computing as part of 
a strategic plan that includes at least four features.
    First, support for the long-term R&D necessary to create 
new generations of high-end systems.
    Second, the sustained support for the grand challenge 
application teams that will develop the next generation 
applications to use these systems.
    Third, regular deployment of the world's fastest computing 
facilities as part of a broad infrastructure that sustains and 
supports them.
    And finally and equally importantly, vendor engagement to 
ensure technology transfer and economic leverage.
    In summary, the opportunities afforded by high-performance 
computing are great if we continue to commit to the balanced 
investment in hardware, software, and applications. Thank you 
very much.
    [The prepared statement of Dr. Reed follows:]
 Prepared Statement of Daniel A. Reed, Director, Renaissance Computing 
Institute, University of North Carolina at Chapel Hill, Chapel Hill, NC
    Good afternoon, Mr. Chairman and Members of the Committee. Thank 
you very much for granting me this opportunity to comment on the future 
of high-end computing I am Daniel Reed, Director of the Renaissance 
Computing Institute (RENCI), a collaborative activity of the University 
of North Carolina at Chapel Hill, Duke University and North Carolina 
State University. I also chaired the recent community workshop\1\ for 
the interagency High-End Computing Revitalization Task Force (HECRTF). 
I am also a researcher in high-performance computing, with 
collaborations in both technology and applications.
---------------------------------------------------------------------------
    \1\ The HECRTF community workshop report is available at 
www.hpcc.gov/hecrtf-outreach/20040112_cra_hecrtf report.pdf.
---------------------------------------------------------------------------
    I would like to begin by commending Senators Bingaman and Alexander 
for their sponsorship of S. 2176, the High-End Computing Revitalization 
Act of 2004. In response to your questions regarding high-end computing 
and S. 2176, I would like to make five points today.
             1. scientific computing: the endless frontier
    Often, the phrase high-end computing (HEC) is used without adequate 
definition. This impreciseness has often confused discussion about the 
unique capabilities of high-end computing, its intended uses and the 
impact of market forces on access to high-end computing systems. 
Evolving technology continues to change the quantitative lower bound on 
the definition of high-end computing--today's desktop computer was 
yesteryear's supercomputer. However, at any moment, high-end computing 
is most accurately defined by its impact--those computing systems with 
transformative power to enable breakthrough scientific discoveries, 
ensure defense preeminence and maintain international competitiveness.
    At the highest level, HEC systems share many features with large-
scale scientific instruments, whose national and international 
deployments are also funded by the Federal government. Each new and 
more powerful scientific instrument allows us to probe further into the 
unknown, whether it is deep field images from the Hubble telescope and 
insights into the origins of the universe, the high energy detectors of 
Fermi Lab's Tevatron and refinements to the Standard Model of subatomic 
particles, or large-scale genetic sequencers and an understanding of 
the deep biological basis of life and disease.
    Similarly, each new and more powerful generation of high-end 
computing systems has enabled validation of theoretical predictions, 
particularly when circumstances prevent experimental testing (e.g., in 
cosmology). Where experiments are possible, high-resolution 
computational models allow researchers to shape those experiments more 
efficiently. High-end computing also allows experimentalists to capture 
and analyze the torrent of data being produced by a new generation of 
scientific instruments and sensors, themselves made possible by 
advances in computing and microelectronics.
    However, one aspect of high-performance computing distinguishes it 
from other scientific instruments--its universality as an intellectual 
amplifier. Powerful new telescopes advance astronomy, but not materials 
science. Powerful new particle accelerators advance high energy 
physics, but not genetics. In contrast, high-end computing advances all 
of science and engineering, because all disciplines benefit from high-
resolution model predictions, theoretical validations and experimental 
data analysis.
    The English scientist Humphrey Davy could well have been speaking 
about high-end computing when he said:

        Nothing tends so much to the advancement of knowledge as the 
        application of a new instrument. The native intellectual powers 
        of men in different times are not so much the causes of the 
        different success of their labors, as the peculiar nature of 
        the means and artificial resources in their possession.

    In a phrase--success accrues to the talented who have access to the 
most powerful tools.
    Although incremental advances in computing continue to bring 
research advantages, there are transition points, where major advances 
in computing have qualitatively changed the range of problems that can 
be solved. In the 1970s, the emergence of vector computing first made 
it possible to construct realistic models of many phenomena. In the 
1980s and 1990s, massively parallel systems based on commodity 
processors opened new doors to computational modeling. However, 
realistic three-dimensional models of many time varying phenomena 
remain out of reach with today's HEC systems.
    Two recent workshops, the interagency HECRTF community workshop and 
the DOE Science Case for Large-scale Simulation (SCALES) workshop, 
researchers from multiple disciplines made the quantitative case for 
speedups in sustained performance of 50-100 over current levels to 
reach new, important scientific thresholds. For example, in quantum 
chomodynamics (QCD), HEC systems with a sustained performance of 20-100 
teraflops (TF) would enable calculations of sufficient precision to 
serve as predictions for ongoing and planned high-energy physics 
experiments. In magnetic fusion research, sustained execution at 20 TF 
would allow Tokamak simulations that resolve the natural length scales 
of micro-turbulence. Finally, 50 TF was identified as an important 
threshold for creation of new catalysts that are more energy efficient 
and generate less pollution.
    However, beyond these opportunities lie scientific and public 
policy problems of even greater complexity--ones that will require the 
coupling of models from multiple disciplines to understand the complex 
interplay of many forces, all subject to real-time constraints. For 
example, in hurricane preparedness, multidisciplinary computations must 
fuse models of the ocean and atmosphere (for weather prediction and 
damage assessment), transportation systems (for evacuation and 
recovery), telecommunication system structure and use (for public and 
government usage patterns) and social dynamics (for predicting social 
response).
    Similarly, multilevel models of biological processes will be 
necessary to understand the complex interplay of disease heritability 
and environmental impact. Constructing a first principles, predictive 
model of a biological organism is multiple orders of magnitude beyond 
our current capabilities. However, an accurate computational model of 
even a single cell could save trillions of dollars in drug testing and 
would allow us to accelerate the development of new drugs that could be 
tailored to maximize efficacy and minimize toxicity.
    At the end of the World War II, Dr. Vannevar Bush famously noted in 
his report, Science: The Endless Frontier, ``. . . without scientific 
progress no amount of achievement in other directions can insure our 
health, prosperity, and security as a nation in the modern world.'' 
Today, high-end computing is the enabler for scientific progress of all 
types; it has become the third pillar in the triad of theory, 
experiment and computation. Indeed, it is only slightly hyperbolic to 
say that all science is now computational science.
    Given the deep interdependence of computing and science, the 
university community could readily exploit access to new generations of 
high-end computing systems. Indeed, the community eagerly awaits such 
access. However, without continued investment in high-end computing 
capabilities, our rate of scientific discovery will be limited, not by 
our insights or our imagination, but by the ability to develop and 
evaluate complex computational models.
This brings me to my second point: the need for investment in new high-
        end architectures.
           2. architectures, software and integrated systems
    The explosive growth of scientific computing based on clusters of 
commodity microprocessors has reshaped the high-performance computing 
market. Although this democratization of high-performance computing has 
had many salutatory effects, including broad access to commodity 
clusters across laboratories and universities, it is not without its 
negatives. Not all applications map efficiently to the cluster 
programming model of loosely coupled, message-based communication. 
Hence, many researchers and their applications have suffered due to 
lack of access to more tightly coupled high-end systems. Second, an 
excessive focus on peak performance at low cost has limited research 
into new architectures, programming models, system software and 
algorithms. The result has been the emergence of a high-performance 
``monoculture'' composed predominantly of commodity clusters and small 
symmetric multiprocessors (SMPs).
    We have substantially under-invested in the research needed to 
develop a new generation of high-end architectures. The result is a 
paucity of new approaches to managing the increasing disparity between 
processor speeds and memory access times (the so-called von Neumann 
bottleneck). Hence, we must target exploration of new systems that 
better support the irregular memory access patterns common in 
scientific and national defense applications. In turn, promising ideas 
must be realized as advanced prototypes that can be validated with 
scientific codes.
    Finally, although high-end hardware is necessary, it is by no means 
sufficient. Scientific discovery also requires access to large-scale 
data archives, connections to scientific instruments and collaboration 
infrastructure to couple distributed scientific groups. Any investment 
in high-end computing facilities must be balanced, with adequate 
investments in hardware, software, storage, algorithms and 
collaboration environments. Simply put, scientific discovery requires a 
judicious match of computer architecture, system software, algorithms 
and software development tools.
This leads me to my third point: software and the importance of 
        centers.
         3. the critical importance of software and algorithms
    Without appropriate software, the full potential of HEC systems 
will remain unrealized. In the 1990s, the U.S. high-performance 
computing and communications (HPCC) program supported the development 
of several new computer systems. In retrospect, we did not recognize 
the critical importance of long-term, balanced investment, particularly 
in software and algorithms.
    Today, scientific applications are developed with software tools 
that are crude compared to those used in the commercial sector, or even 
available on a personal computer. Low-level programming, based on 
message-passing libraries, means that application developers must 
provide deep knowledge of application software behavior and its 
interaction with the underlying computing hardware. This is a 
tremendous intellectual burden that, unless rectified, will continue to 
limit the usability of high-end computing systems, restricting 
effective access to a small cadre of researchers.
    New programming models and tools are needed that simplify 
application development and maintenance. The current complexity of 
application development unnecessarily constrains use of high-
performance computing, particularly for commercial use. Finally, 
increases in achieved performance over the past twenty years have been 
due to both hardware advances and algorithmic improvements; we must 
continue to invest in basic algorithms research.
    Hence, I was pleased to see that S. 2176 includes support for a 
high-end computing software development center. Indeed, several 
community workshops and reports have advocated creation of just such a 
software development center. The limited market for high-end systems 
means, concomitantly, that software tailored for them also has limited 
markets. This makes long-term government sustenance of software tools 
critical to the success of high-end systems.
    Given the unique software needs of high-end computing and the 
importance of long-term research, development and deployment, a 
software development center provides an institutional mechanism for 
evaluating new approaches and developing and supporting valuable 
software tools. Experience has also shown that effective software tools 
are developed over periods of a decade or more, as experience with 
applications and architectures is used to rectify software shortcomings 
and enhance software strengths. The Japanese Earth System Simulator is 
an exemplar of this experience; it relies on software ideas originally 
developed by the U.S. high-performance computing program, but later 
abandoned before they could be fully implemented and proven.
This brings me to my fourth point: competitiveness and community 
        sustainability.
                4. competitiveness and retaining talent
    Not only has high-performance computing enriched and empowered 
scientific discovery, as part of a larger information technology 
ecosystem, it has also been responsible for substantial economic growth 
in the United States. Because of this success, information technology 
and high-performance computing are increasingly international 
activities, with associated competition for intellectual talent and 
access to world-class computing resources. Today, we are in danger of 
losing our international competitive advantage in high-end computing, 
with serious consequences for scientific research and industrial 
competitiveness.
    Investment in high-end computing has advanced a broad array of 
computing technologies, with associated enhancement of industrial 
competitiveness. However, today's HEC systems are too difficult to use 
and often fail to deliver sufficiently high performance on important 
industrial applications. Multidisciplinary manufacturing optimization, 
high-speed data mining, virtual prototyping and rational drug design 
are all targets for industrial application of HEC.\2\
---------------------------------------------------------------------------
    \2\ Many of these topics will be discussed at the upcoming High-
Performance Computing User's Conference; see 
www.hpcusersconference.com/home.html.
---------------------------------------------------------------------------
    To attract and retain the best and brightest talent, we must create 
an environment where students and practicing researchers believe, and 
experience shows, that computational science can catalyze scientific 
discovery of the first order. Concomitantly, we must sustain the level 
of investment needed to educate multiple generations of students and 
allow them to reap the benefits of scientific discovery via 
computational science. In the past, the uncertain and highly variable 
support for high-end computing has led many of these researchers to 
focus their efforts on theoretical or experimental studies where 
funding was perceived to be more stable and where access to 
experimental facilities was assured.
    We must recognize that creating a leading edge computational 
science code is a multiyear project that requires coordinated effort by 
professional staff, students, post-doctoral research associates and 
faculty or laboratory researchers. The research rewards are reaped only 
after a multiyear, upfront investment. In contrast to many other 
scientific instruments, whose operational lifetimes are measured in 
decades, the 2-3 year lifetimes of high-end computing facilities means 
that new systems must be procured and deployed regularly, as part of a 
long-term, strategic plan that includes coordinated investment in 
people and infrastructure.
    Science is a ``learn by doing'' enterprise where excellence begets 
excellence; computational science is no different. Support is needed 
for computational science grand challenge teams that can address large-
scale problems. The opportunity for students and other researchers to 
apply their talents using the world's best tools will, as Sir Humphrey 
Davy famously remarked, yield the competitive advantage.
    We must also encourage risk taking and innovation, both in high-end 
system design (hardware, software and applications) and in scientific 
applications. A balanced research portfolio includes both low risk, 
evolutionary approaches and higher risk, revolutionary approaches. By 
definition, many of the latter fail, but a few will have transforming 
effects. The opportunity to explore new ideas within an environment 
that embraces innovation and provides access to the world's highest end 
computing systems is the clarion call that will continue to attract the 
best talent.
Finally, my fifth point concerns the role of the Federal government.
                      5. federal government roles
    The dramatic growth of the U.S. computing industry, with its 
concomitant economic benefits, has shifted the balance of influence on 
computing system design away from the government to the private sector. 
Given their unique attributes, the very highest capability computing 
systems have a very limited commercial market, nor is it likely a broad 
market will ever develop. The high non-recurring engineering costs to 
design HEC systems matched to scientific and government needs are not 
repaid by sales in the commercial market place.
    Hence, we must rethink our support models for research, 
development, procurement and operation of high-end systems. Just as 
certain capabilities. are supported by the Federal government for the 
common good--Interstate highways for transportation, national parks for 
protecting our natural heritage and ships and aircraft for the national 
defense--so too must high-end computing be sustained by the Federal 
government. This new approach may well require 10-20 year commitments 
to strategic vendor partnerships, just as is common in defense 
procurements. The Federal commitment to fund research and development, 
together with many years of procurements, can provide the long-term 
economic incentives needed by the computing industry to justify HEC 
development.
    Hence, ongoing Federal investment, as part of a strategic, long-
term computing plan, is critical to ensuring that HEC systems remain 
accessible for scientific discovery, industrial development and 
national needs. This strategic plan should include at least five 
features:

    1. Support for the long-term research and development to create new 
generations of HEC systems matched to the needs of scientific, 
government and critical industry needs.
    2. Sustained support for computational science grand challenge 
teams to create and use leading edge computational codes and to educate 
new generations of HEC users.
    3. Regular deployment and support of the world's highest 
performance computing facilities for scientific use, as part of a broad 
ecosystem of supporting infrastructure, including high-speed networks, 
large-scale data archives, scientific instruments and integrated 
software.
    4. Coordination and support for national priorities in science, 
engineering, national security and economic competitiveness.
    5. Vendor engagement to ensure technology transfer and economic 
leverage

    The opportunities afforded by high-end computing and computational 
science are great. However, continued U.S. leadership and the 
associated scientific benefits can be reaped only by sustained 
investment in long term strategic plans. We must not waiver in our 
commitment.
    Thank you very much for your time and attention. I would be pleased 
to answer any questions you might have.

    Senator Alexander. Thank you, Dr. Reed.
    Mr. Scarafino.

STATEMENT OF VINCENT SCARAFINO, MANAGER, NUMERICALLY INTENSIVE 
          COMPUTING, FORD MOTOR COMPANY, DEARBORN, MI

    Mr. Scarafino. Thank you. I appreciate being able to 
discuss the importance of government leadership in advancing 
the state of high-end computing. My name is Vincent Scarafino 
and I am manager of Numerically Intensive Computing for Ford 
Motor Company.
    Ford has a long and proud history of leadership in 
advancing engineering applications and technologies that covers 
our 100 years of operations. Today we spend billions of dollars 
every year on worldwide engineering, research and development, 
reflecting our ongoing commitment in technology to bring 
innovative products to markets around the world.
    The effect government decisions have on the direction of 
high-end computing has been well demonstrated. Up until the mid 
1990's, the Federal Government played an active role in funding 
the development of high-end machines with faster, more powerful 
processing capability and matching memory bandwidth. Built to 
meet the needs of government security and scientific research, 
their development spurred new applications in the private 
sector.
    The mid 1990's, however, brought an embracement of parallel 
processing as the holy grail for harnessing computing power to 
solve the next generation of intractable problems. What 
followed were significant advances in computer science in the 
area of parallel processing. Nevertheless, an unfortunate and 
unintended consequence was that scientists and engineers who, 
for the most part, did not have the necessary computer science 
expertise, were not in a position to participate in these 
advances.
    I am encouraged by this committee's interest in advancing 
the fundamental speeds and capabilities of high-end computers 
and reestablishing U.S. leadership in the field of 
supercomputing. There are still difficult problems waiting to 
be solved and many of them may not be parallel in nature. A 
parallel approach is effective in many instances, but there are 
limitations. We are at a level for many applications where 
further development requires higher levels of individual 
processor performance.
    For example, the current state-of-the-art in simulation 
programs used by industry apply a single type of computational 
analysis. Some examples are heat transfer, physical 
deformation, vibration, and fluid flow. The ability to apply 
more than one of these fundamentals simultaneously is one of 
the evolutionary directions that will move science forward. 
This is referred to as multi-physics simulation and is very 
computationally demanding. An example is computational aero-
acoustics where the characteristics of fluid flow and 
structural behavior are modeled. This provides a virtual wind 
tunnel that can potentially predict the wind noise 
characteristics of a vehicle, which is among the most cited 
customer issues. Another automotive application could be the 
design of exhaust systems for effective noise management. Ford 
is planning to work with Oak Ridge National Laboratory to 
evaluate the feasibility of this with current available 
software on a very large capability platform at the lab.
    Advances in vehicle safety analysis, which currently 
depends on finite element models, could be enhanced with 
improved high-performance computers. New element formulations 
have been created that have the potential to provide improved 
fidelity but at a cost of needing significantly more computing 
power. Also, more detailed material property modeling will 
expand the application to new levels. Accurate prediction of 
human injury waits for the arrival of faster processors. 
Predicting the behavior of composite materials in impact 
situations is also too difficult for today's machines.
    Computing capabilities allow Ford to accelerate the design 
cycle. More powerful high-end computing systems will help 
engineers balance competing design requirements. Performance, 
durability, crashworthiness, occupant and pedestrian protection 
are among them. These tools are necessary to be competitive in 
today's technology driven and intensely competitive markets. 
The United States is the largest and most open market in the 
world and the battleground for the world's global auto makers.
    The competitive impact of government policies and 
technological support from other countries is easily noted. 
Germany provides its industries access to high-end computers 
through universities that have a core mission objective to 
support industry. The United Kingdom and France provide 
supercomputer resources to European aerospace industries. Japan 
produces high-end computers and makes them available to its 
industries for research through universities.
    U.S. leadership in the area of supercomputing is needed to 
promote technologies and scientific advancements that provide 
the basis for economic growth and competitiveness. The Federal 
Government cannot rely solely on market-based economic forces 
with fragmented and relatively low volume applications to 
advance high-performance computing capability.
    I would also like to mention the importance of software 
development as an integral part in achieving high-end computing 
capability. Many of the application codes used by the 
automotive industry have their roots in government-funded 
development projects. NASTRAN from NASA and DYNA3D from 
Lawrence Livermore Labs provided the solid background. 
Languages and programming environments need to allow scientists 
and engineers to express their problems in terms they are 
familiar with.
    Advancing high-performance computer capabilities will 
enhance U.S. manufacturing competitiveness. Our experience over 
the past 100 years in product development and manufacturing has 
shown that continued investment in technology is needed in 
order to provide cleaner, safer, more efficient, and more 
affordable products to our customers. Technology will play an 
increasingly important role moving forward as a key competitive 
driver for U.S. industry and the economy as a whole.
    Once again, I applaud the focus of this committee on 
ensuring that we can meet the competitive challenges of the 
future by promoting funding initiatives at the National Science 
Foundation and at the Department of Energy in the area of high-
performance computing.
    Again, thank you for this opportunity.
    Senator Alexander. Thank you, Mr. Scarafino.
    Dr. Kusnezov.

STATEMENT OF DR. DIMITRI KUSNEZOV, DIRECTOR, OFFICE OF ADVANCED 
      SIMULATION AND COMPUTING, NATIONAL NUCLEAR SECURITY 
                         ADMINISTRATION

    Dr. Kusnezov. Thank you. Mr. Chairman and Senator Bingaman, 
it is an honor for me to be here and be afforded the 
opportunity to provide you an overview of the advanced 
simulation and computing program.
    The central problem this program addresses is the 
replacement of underground testing with the more rigorous 
scientific methodology with which to assess and maintain our 
confidence in our nuclear stockpile.
    The first point I would like to make is that ASC 
deliverables are time sensitive. Supporting national policy 
with respect to the maintenance of our nuclear stockpile 
requires that we be able to certify annually to the Secretaries 
of the Departments of Energy and Defense that the stockpile is 
safe, reliable, and secure.
    The stockpile is aging and refurbishment of some parts is 
essential. This drives a sense of urgency on our part to have 
the tools, both the codes and the supporting computer 
infrastructure, in place and tested so that they can be applied 
and provide answers to stockpile questions. This is our 
mission, to provide leading edge, high-end simulation 
capabilities needed to meet weapons assessment and 
certification requirements. We cannot achieve this mission 
without the multidisciplinary scientific underpinnings critical 
to this major computational effort. Computation underpins all 
we do.
    Second, simulating the time evolution of the behavior of an 
exploding nuclear device is not only amount of the scientific 
enterprise from a computational perspective, it probably 
represents the confluence of more physics, chemistry, and 
material science, both equilibrium and non-equilibrium, at 
multiple length and time scales than almost any other 
scientific challenge. Both our legacy and our modern codes must 
be able to reproduce the data taken in Nevada and in the 
Pacific, and with the exception of some anomalies that remain 
to be explained, they do.
    However, now we are calling on the simulations to evaluate 
phenomena that result from changes to the devices from the way 
they were originally designed and built. The systems, most of 
which are decades old, are not aging gracefully. The 
radioactive environment in the interior of a nuclear device 
causes uncertain changes in the material properties and their 
subsequent behavior. We rely on our ability to predict the 
burning of high explosives, the fission properties of critical 
metals, and the stability of various inert materials. The 
physics and chemistry of aging is far from understood and will 
require increasingly microscopic descriptions to characterize 
their effects accurately.
    Surveillance activities regularly open existing devices and 
examine them for these kinds of changes. Now we have to 
understand how much these changes matter, how critical they 
are. We can only do this through detailed simulations that 
include the necessary physical representations. These stockpile 
effects, almost all of which are three dimensional, currently 
require heroic, nearly year-long calculations on thousands of 
dedicated processors. It is essential that we provide the 
designers with the computational tools that allow such 
simulations to be completed in a reasonable timeframe for 
systematic analysis. This is one of the requirements that 
drives us well into the pedascale regime for our future 
platforms. An ingredient of this landscape is that most of the 
work that we do is and must remain classified, which limits the 
kinds of collaborations we are able to do with various other 
agencies and academia.
    My last point is that there is a broad and fertile ground 
for serious collaborations. Today scientific enterprise is 
enabled through large supercomputers. Clearly one cannot just 
buy such machines and plug them in. There are complex operating 
systems, compilers to translate human written code into machine 
language, sophisticated debugging tools to find the inevitable 
errors in any large programming enterprise, and evaluation 
techniques such as that which enables three-dimensional 
visualization of the results that we get from the codes. Each 
of these is essential for our success and does not need to be 
invented here. We can share ideas, share implementations, and 
provide serious peer review of approaches we are taking.
    I support the work of the committee to inject energy, 
resources, and commitment to strengthening the scientific 
enterprise of this Nation. It is essential for our national 
security in all its manifestations from defense to economic 
competitiveness to the quality of individual life. At NNSA our 
focus has been and must continue to be to support national 
policy in the arena of nuclear competence. I choose the word 
``competence'' carefully because it implies many things. It 
implies a powerful scientific underpinning to a most complex 
enterprise and it implies the infrastructure to support that 
science. Most of all, it demonstrates to our adversaries that 
we know what we are doing. That is our first and foremost 
responsibility.
    In closing, we in the Department of Energy are charged with 
two disparate missions: one of scientific exploration and the 
other of national security. I would like to emphasize that we 
cannot afford to exchange one for the other. We are mutually 
stronger because of the commitment and the dedication to 
innovative science that the basic and applied work of the two 
parts of the Department respectively bring together to their 
missions. The country is stronger as a consequence.
    Thank you.
    [The prepared statement of Dr. Kusnezov follows:]
    Prepared Statement of Dr. Dimitri Kusnezov, Director, Office of 
      Advanced Simulation & Computing, National Nuclear Security 
                             Administration
    I thank the committee for the opportunity to address the Members 
and to express my support for computation as a major underpinning of 
the scientific enterprise. As it is in many contexts, within my sphere 
of NNSA, computing is making possible, things previously thought to be 
impossible.
                              introduction
    Within the Stockpile Stewardship Program, the National Nuclear 
Security Administration and the Department of Energy and its three 
weapons laboratories are responsible for assuring the President, 
annually, that each nuclear weapon system in the existing stockpile is 
safe, secure and reliable, without the need to resume underground 
testing. This is a scientific and engineering challenge that many have 
likened to the Manhattan Project and the Apollo Project. One of the 
most important elements of the Stewardship Program is the Advanced 
Simulation and Computing Program (ASC, formerly ASCI).
    In the post cold war world many have asked why the United States 
still needs to maintain a nuclear stockpile. As international events 
have proved since the fall of the Berlin Wall and the collapse of the 
Soviet Union, the world remains a dangerous and unpredictable place. A 
safe, secure and reliable nuclear deterrent reassures our allies that 
the security umbrella which helped secure the peace during the cold war 
remains effective; it deters potential adversaries, and advances non-
proliferation goals. We approach our mission with these ends in mind.
    Achieving the necessary credibility, both internally and 
externally, reflects our commitment to the nation to ensure that it can 
continue to depend on the reliability of the stockpile. The simulation 
tools we develop to this end rely for their credibility on a 
combination of non-nuclear experiments, comparisons with analytic 
solutions where possible, rigorous analysis of the scientific data 
gathered from over 1000 nuclear tests and extraordinary computing.
    Since the dawn of the nuclear age, computation has been an integral 
part of the weapons program and our national security. With the 
cessation of testing and the advent of the science-based Stockpile 
Stewardship Program, ASC simulations have matured to become a critical 
tool in stockpile assessments and in programs to extend the life of the 
nation's nuclear deterrent. Using today's ASC computer systems and 
codes, scientists can include unprecedented geometric fidelity in 
addressing issues specific to life extension. They can also investigate 
particular aspects, such as plutonium's equation of state, 
scientifically and in detail heretofore impossible, and then extend 
that understanding to the full weapons system. The results of these 
simulations, along with data from legacy testing and ongoing 
experimental activity, improve the ability of weapons designers to make 
sound decisions in the absence of nuclear testing. Given the critical 
role that numerical simulations play in the Stockpile Stewardship 
Program, the credibility of our simulation capabilities is central to 
the continued certification of the nuclear stockpile.
                              asc strategy
    Simulating the time evolution of the behavior of an exploding 
nuclear device is not only a mammoth scientific enterprise from a 
computational perspective, it probably represents the confluence of 
more physics, chemistry and material science, both equilibrium and non-
equilibrium at multiple length and time scales than almost any other 
scientific challenge.
    Changes that we must make in nuclear weapons to extend their 
lifetime, under the Life Extension Program to compensate for 
unavoidable corrosion and chemical decomposition also require the 
application of sophisticated engineering modeling to enable us to 
replace components and to perform refurbishments of existing weapons 
without altering weapon performance. Moreover, understanding the 
consequences of aging, evaluating the effects of corrosion and 
oxidation, folding into our calculations the inevitable changes in 
material properties in self-irradiating environments, all require a 
deeper understanding and the ability to model the relevant physical 
phenomena.
    The ASC Program must be a balance of short-time-line deliverables, 
like the annual assessment, and longer-term research activities. The 
latter are essential to reduce the uncertainties in our simulations and 
to better model aging effects outside of the parameter space defined by 
the nuclear test base.
    As regards weapons simulations, there are many areas of classified 
research that we must perform in a secure manner, for example, 
understanding specific properties of special nuclear material as well 
as analyzing the behavior of systems under a particular set of extreme 
conditions (stockpile to target sequence). For this we must maintain a 
strong, in-house scientific capability. While much of what we do can 
and does benefit greatly from work with others, ``outside the fence'', 
our core mission and the rationale behind our structure and activities 
has been and will continue to be the support of the Stockpile 
Stewardship Program.
    To deal with the complex needs of Stockpile Stewardship, ASC has 
developed as a comprehensive ten-year program tuned to deal with the 
schedule of deliverables. It includes the development of two- and 
three-dimensional weapons codes and physics models built on a validated 
scientific/engineering base, the scientific resources necessary to 
develop better models, the acquisition of powerful computing platforms 
and the creation of the supporting hardware and software 
infrastructure. A balanced allocation of resources across these 
components is essential for program success. For example, platform 
costs represent about 15% of the overall ASC budget--the greatest 
investment is in the people, particularly those focused on scientific 
applications, physics and model development.
    The FY 2005 request now before the Congress provides a total of 
$435M to pay for people at the weapons labs; this is an increase of 
3.6% over FY 2004. Recent action by the House Energy and Water 
Development Committee to cut $75M places at risk not only these 
critical people but also the next generation of machines that are 
needed at the laboratories to tackle the ever-increasing demands of the 
weapons designers and engineers. A recent study by the JASONS 
highlighted both the capability and capacity constraints.
    Weapons code development and computing infrastructure have evolved 
together in complexity and sophistication. At the very beginning of the 
ASC Program, we looked at the kinds of problems we would need to solve, 
when we needed to be able to solve them, and how quickly we would need 
to get results from calculations. This analysis determined both the 
size of the computers we set out to acquire through partnerships with 
computer industry leaders and their acquisition schedule. In 1995 our 
computing platform goal was to obtain a computer system by 2004 that 
could process 100 trillion floating-point operations per second (a 
trillion floating-point operations per second is one teraflop or TF)--
the ``entry-level'' capability for high fidelity, 3D, full system 
weapon simulations. Clearly, major innovations in massively parallel 
computer systems and computing infrastructure would be required to meet 
this goal. At the same time, highly scalable weapons simulation codes 
that could make effective use of these computers had to be developed.
    The ASC platform strategy is to provide robust production level 
capability to the program today, while staying abreast of recent 
advances in computer technology to prepare for the future. Each 
platform, which necessarily pushes the current state-of-the-art, 
requires a close partnership between the weapons laboratories and 
industry to bring to fruition. ASC has produced four generations of 
powerful platforms having impacts on stockpile decisions code-named: 
Red, Blue, White, and Q. Today, the ASC platforms of highest capability 
are LLNL's ``White'' at 12.3 TF and LANL's ``Q'' at 20 TF. The present 
acquisitions are SNL's ``Red Storm'' projected to be 40 TF and LLNL's 
``Purple'' at 100TF, arriving in mid 2005. The 100 TF platform was 
sized during original program planning activities to provide a 
reasonable turn-around time for 3-dimensional weapons calculations, 
taking into account the minimal resolution and physical models 
required. A one-week calculation was estimated to require roughly a 100 
TF supercomputer. This represents an entry-level calculation since it 
begins to make 3D calculations more of a tool than 476-de-force, with 
sufficient resolution and science to render the simulations of value to 
the designers. In the interim, as the Stockpile Stewardship mission has 
progressed, new issues and questions have come to light. As we address 
these emerging needs through improved science and resolution, we 
balance the program planning to evolve accordingly.
    The acquisition of Purple is the fulfillment of the original ASC 
100 TF goal.
    Nearly 9 years after the original plan, it should be delivered 
within a few months of the anticipated date. But this is only the 
capability demonstration. There is a clear need, well supported by 
distinct technical requirements, for almost equal amounts of capability 
and capacity, leading up to but not stopping with a petaflop (PF = 1000 
TF) class computer by the end of the decade.
    To meet the broader, evolving computing needs of the future, ASC is 
now acquiring Blue Gene/L, a 360 TF platform that will be used 
extensively to improve physics models in ASC codes starting in FY05. 
This platform will also be used to evaluate the technology for 
suitability to a broader workload. Blue Gene/L represents a very 
positive benchmark for high performance computing in the United States. 
The system represents a substantial R&D investment by IBM in a 
``computer for science''. This investment was initiated and encouraged 
by NNSA and the Office of Science long before the Japanese Earth 
Simulator was widely discussed in American circles. This technology 
demonstrates that American industry and government partners have never 
wavered from focusing on the very difficult issues associated with 
scientific computing. Considering that Blue Gene/L in 2006 will be 
running problems ten times more demanding than are currently possible 
on the Earth Simulator and that it will cost less than 1/6 as much as 
the Earth Simulator, demonstrates the vitality and imagination of 
American industry and the forward-looking planning and commitment of 
resources by NNSA and the ASC Stockpile Stewardship Program.
    Although our current acquisition model meets our present 
programmatic needs, we remain supportive for additional investments in 
innovative architectures that will carry us to the next generation of 
computing architectures. As an integral part of the NNSA ASC Program, 
we fund targeted efforts to study advanced architectures and a program 
we call ``PathForward'' that looks to the future in both hardware and 
software components. Additionally, we seek opportunities to capitalize 
on the work of others through formal structures, such as the HEC 
Revitalization Task Force and the DARPA HPCS Program, as well as less 
formal collaborations, many of which are with Office of Science 
principle investigators.
             the federal role in high-performance computing
    Due to programmatic requirements, NNSA has historically been the 
owner of the largest high-end machines in the world. This has created-
an expectation on the part of the open science community that some 
fraction of these resources would be available for basic research 
modeling, computing and analysis. Consistent with our responsibility to 
deliver on our mission, we have always made a large number of cycles 
available to the scientific community, taking great care with the 
restrictions imposed by maintaining the security of our classified 
workload and paying attention to export control issues.
    However, the demand has historically outstripped the availability 
and resulted in a tension between open and secure needs. This is 
alleviated to some extent today by the advent of inexpensive, terascale 
Linux clusters at many centers, particularly in the academic 
communities. Comparing the top 500 list 5 years ago with today's list, 
one finds today over 100 machines with greater than. one teraflop peak, 
compared 5 years ago when there were only four. Clearly we are entering 
a time of a greatly enhanced capacity of cycles for science, spread 
throughout the world's scientific community. A large fraction of these 
cycles have become available outside our borders. In fact, in 1998, 290 
of the top 500 most capable machines were U.S. machines. In 2003, that 
number had dropped to 248. Although the total teraflops in the top 500 
available in the U.S. has increased from 28 teraflops to 531 teraflops, 
the numbers overseas has increased from 16 to 391 teraflops. The 
challenge to American success in this endeavor is obvious.
    In November 2002, the Secretary of Energy, Spencer Abraham, 
announced the ASC Purple contract between IBM and LLNL, for the 100 
teraflop Purple platform and the 360 teraflop Blue Gene/L system. Last 
month, Secretary Abraham announced the ORNL procurement, which will 
deliver even more computing to the open scientific community. This 
commitment to computing from the Department of Energy demonstrates the 
leadership role the Department has taken in overseeing the development 
of computational science in the U.S.
    In order for the country to move forward effectively, it is 
essential that multiple architectural approaches and technologies be 
explored systematically. For the past decade, the NNSA ASC Program, 
working with first tier vendors, has demonstrated that very large 
systems can be built successfully on accelerated timescales and at 
reasonable cost to meet extraordinary programmatic objectives. In 
recent years, the DARPA High Productivity Computing Systems (HPCS) 
Program has invigorated U.S. vendors through its unprecedented 
investments to build innovative high-end computing solutions. Even so, 
for there to be long-term, sustainable paths in multiple technologies 
to reduce risk, additional investments are essential beyond those 
possible by NNSA and DARPA, and so the DOE's Office of Science 
Leadership Class computing effort represents a welcome development.
    In addition to the most capable high-end computing platforms, 
advanced applications require a powerful supporting infrastructure that 
includes integrated systems of compilers, debuggers, visualization 
tools, and secure computing and data transmission over long distances. 
For many of these support activities we rely on an industrial sector 
that we believe must be motivated to continue to work with us on our 
problems of such national significance.
                       asc and sc in partnership
    The Secretary's announcement of the ASC Purple contract between IBM 
and LLNL, for the 100 teraflop Purple platform and the 360 teraflop 
Blue Gene/L system along with last month's, announcement of the ORNL 
procurement highlights a major source of commonality in our goals, in 
this case for high-performance tools to enable our scientific 
endeavors.
    Additionally, we have collaborated on and jointly issued a policy 
with the Office of Science that directs that software developed under 
contracts from the Department will be licensed as open source. This 
will make available the fruits of our joint labors to the academic 
community and to the industrial sector. On the hardware side our 
procurements of the Cray Red Storm and the IBM Blue Gene/L machines not 
only include Office of Science, but also involve other agency and 
academic leaders in peer reviews, and allows these partners to weave 
first-available technologies into their activities.
    To accomplish our mission, now and in the future, the program must 
rely upon scientific progress in many fields of physics and 
engineering, as well as innovative advances in computer science and 
modern architectures. We cannot do this in isolation but must continue 
to remain connected to the broader science community as a whole. 
Although the nation's nuclear weapons program has a long history of 
leadership in driving the supercomputer industry and in using the 
largest capability machines to inform design and maintenance decisions, 
the enormity of the problems we face today are beyond NNSA's ability to 
go it alone. We are actively partnering with other agencies, industry 
and academia to develop tools and techniques of applicability to our 
programmatic challenge.
    We are committed to maintaining the country's scientific strength. 
To that end, we nurture computation at every level, particularly at the 
high end, and we support recruitment and the training of the next 
generation of computational physicists and engineers to whom we will 
eventually entrust our national security responsibilities. One example 
in this respect is our funding contributions to the Computational 
Science Graduate Fellowships Program, which we do in conjunction with 
the Office of Science.
    With that goal in mind, the Computational Science Graduate 
Fellowship program, jointly funded by the DOE Office of Science and 
NNSA/DP, is administered by the Krell Institute to support highly 
capable individuals pursuing doctorates in applied science or 
engineering disciplines with applications in high-performance 
computing. The fellowship program requires completion of a program of 
study that provides a solid background in three areas: a scientific or 
engineering discipline, computer science, and applied mathematics.
                   u.s. computing in a global context
    We have heard much in the past two years on the Earth Simulator, 
the Japanese supercomputer primarily focused on climate modeling. With 
roughly five years in the planning, the delivery of the Earth Simulator 
was not a surprise. Neither is the performance of the particular set of 
applications chosen to run on it. We have not ceded super computing 
leadership to the Japanese as a result of their fielding of the Earth 
Simulator. To achieve the results they exhibit, they spent two years 
tuning a climate code to run on that particular architecture and the 
government invested well over $350M, three times the amount we spent on 
bringing the ASC White and Q machines up. Their success does 
demonstrate the power of governmental will and commitment.
    It is fair to say, however, that the debut of the Japanese Earth 
Simulator has revived the debate about the role of vector computing, 
whether ASC should reconsider the role of vector processing in its 
future machines. Although vector supercomputers provide large 
performance gains in certain applications, they are not well suited to 
ASC applications and, in particular, do not provide sufficient 
performance gains to outweigh their increased costs. The large, multi-
physics applications that dominate the Stockpile Stewardship workload 
display a relatively large scalar fraction since the algorithms that 
provide the shortest time to solution are often not the ones most 
amenable to vectorization.
    In the past two years, NNSA platforms and their performance have 
been measured against the Earth Simulator and other vector-based 
architectures. We take the issue of performance very seriously and 
actively model our applications across architectures, paying close 
attention to the cost vs. performance and to the time to solution of 
our codes and the platforms on which they run. A metric that has 
received wide currency is the `efficiency' ratio of floating point 
operations to peak floating point potential. This metric does not 
account for many of the details of our applications (e.g. memory 
fetches, integer arithmetic, logic operations). One cannot separate the 
specifics of physics models and their implementation from machine 
architectures; some applications will run better on platforms better 
suited to the details of their problem suite. One can increase 
performance as measured by percent of peak floating point operations 
and significantly increase the total time it takes to complete the 
calculation. However, this exchange of making an improvement in an 
arbitrary metric may discourage the users of our codes.
    In a recent analysis, it was shown that for ASC applications, 
vector machines were approximately 3 times less cost-effective than 
commercial-off-the-shelf processing nodes. This follows because ASC 
codes have a relatively small (0.1 to 0.75) vector fraction compared to 
some other codes of interest to the scientific community. These are the 
technical and financial considerations that drive different programs to 
seek different computational architectures.
                            closing remarks
    In the realm of collaborations, it is important to recognize that 
the most fruitful collaborations take place on the scientist-to-
scientist level. Agency management can foster an environment in which 
such collaborations can flourish, and they do so even today, but we 
cannot force them. We have many collaborations with many agencies, most 
especially our, sister agency, the Office of Science. These are good 
and productive collaborations, often focused on computer science 
solutions and ideas for new solvers, in the general sense, that benefit 
us both.
    In addition to our own intra-agency and interagency-focused 
efforts, we continue actively to work with the broader community 
engaged in promoting high-end computing and the development of a 
supporting infrastructure. Our recognition of the need for a vigorous 
partnership between agencies and government sponsors as well as for 
interagency collaborations demonstrates that commitment. Further, the 
ASC Program supports the Council on Competitiveness' Initiative in 
Supercomputing and Productivity, along with our colleagues from DARPA 
and the Office of Science.
    I hope it is clear from my comments and the actions of our program 
that we recognize the importance of sustaining a broad scientific 
community. In addition to the work performed at the Defense Programs 
laboratories to develop key models that reflect the physical reality 
encompassed by our mission, we must and do rely upon the work of our 
colleagues in other agencies. In particular it is the responsibility of 
the ASC Program to turn the sum of our understanding into high-fidelity 
computer representations that are the crucial underpinnings of our 
ability to respond to the nation's policy decisions with respect to the 
nuclear deterrent. Our substantial investments are sized and balanced 
against our need for experimental facilities and our support of the 
ongoing workload across the weapons complex.
    A healthy and vital U.S. High End Computing industry is crucial to 
our continued success in Stockpile Stewardship. We recognize that we 
cannot go it alone but must engage and even rely upon the technical 
achievements of our colleagues in all aspects of scientific computation 
and in the development of the supporting infrastructure. This is a 
massive enterprise from which we all gain, especially as we partner and 
build productive relationships for the greater benefit of this country 
and its people.

    Senator Alexander. Thank you, Dr. Kusnezov, and all of you.
    I will ask a few questions and then turn to Senator 
Bingaman.
    Dr. Kusnezov, the National Nuclear Security Administration, 
which you describe, has historically been the owner of the 
largest high-end computing machines I guess in the world. What 
fraction of these machines has been available for unclassified 
scientific computing?
    Dr. Kusnezov. Thank you, Mr. Chairman. That is a very good 
question. We have a number of restrictions with our largest 
platforms mainly because of the nature of our work. It is 
classified. And we put it behind the fence and it is largely 
unavailable to the open scientific community.
    During the stand-up period, as we introduce these machines 
into the complex, they are in the open environment. This is 
because it facilitates the work of the vendors in standing 
these up and implementing the environment to make these usable. 
During that period, we traditionally have made the machines 
available to some leading edge scientific work, but this is not 
an overall commitment to open science mainly because we do not 
have the resources to support that.
    We do have a fair amount of open scientific work through 
our university partnerships. To support that, we have leveraged 
scientific resources within the country. In particular, we use 
now the scientific computing at the University of California at 
San Diego because this allows us not to worry about the export 
control and classification issues of having foreign nationals 
use our platforms.
    Senator Alexander. Thank you.
    Dr. Wadsworth, let me go back to you with some basic 
things. You are fairly precise in your testimony about where 
you believe this project can go by the year 2008. Could you 
just, in shorthand, describe in summary the teraflops or the 
calculations, where we are today with the kind of high-
performance computing we are talking about studying at Oak 
Ridge and where you hope to go and where that will put the 
United States at that time in comparison with the rest of the 
world?
    Dr. Wadsworth. Yes, I will be happy to do that. We prepared 
these estimates for the proposal that we submitted to the 
Department of Energy. At a substantial investment of the kind 
contained in S. 2176, we believe we can be at 270 teraflops in 
2007.
    Senator Alexander. Today we are where?
    Dr. Wadsworth. Maybe 10. At a lower level of investment, 
then we would get to about 100 teraflops in 2007, a lower being 
at the current level of investment of $25 million or so. So at 
$100 million a year, you can get up to a number like 270; at a 
lower number, you would get to about 100.
    But one has to remember that the rest of the world does not 
stand still. So we would advocate a very aggressive investment. 
That aggressive investment would not be out of line with the 
kind of investments for world class facilities in other fields 
of science.
    Senator Alexander. Let me ask one more question before I go 
to Senator Bingaman. In my conversations with the managers of 
the Oak Ridge program before the competition was conducted, 
some of your colleagues felt like one of your advantages there 
was your ability to provide an easier access for other 
scientists, other business people. Talk a little bit about the 
focus that you are putting not just on developing this 
capacity, but then on making it useful and available to those 
who might apply it in ways like Mr. Scarafino, for example, was 
talking about.
    Dr. Wadsworth. Yes, indeed. First of all, we built a 
facility, which is a beautiful building which can house a world 
class computer. And this is important when we are recruiting. 
Having a program that is sustainable, world class, cutting edge 
in a facility that looks like the world's leading capability is 
an important tool for bringing in the best minds in the country 
and from around the world. So part of the plan was to build a 
facility that has the ability to be expanded, that can allow 
different contractors to compete for the next generation of 
machine, and we also adopted a notion from the large scale 
scientific facilities where we would have end stations or user 
stations.
    So our model is to have seven or eight different scientific 
problems formulated and competed by the scientific community 
and those people, industry, university students, would come 
into the facility and execute their research on these so-called 
end stations of the computer. So our notion from day one was to 
have an open environment where we would attract people from all 
walks of the scientific community into Oak Ridge in a facility 
that was modern and was able to sustain change not only in a 
scientific agenda but also in the type of computing that would 
come along in years to come.
    Senator Alexander. Thank you.
    Senator Bingaman.
    Senator Bingaman. Thank you very much.
    What we focused on, in this legislation and this hearing, 
is the capability that we are developing and already have in 
our Nation to do high-end computation. Clearly the extent of 
that capability is one indicator of how well we are doing in 
competition with others and in leadership in science and 
technology. I would think another good indicator of how well we 
are doing is who the people are who are standing in line 
waiting to use this new computing capability. I just wonder if 
any of you have any insight into that.
    Are U.S. companies actually anxious to or interested in 
using this capability if we go ahead and develop this very 
advanced capability? Are foreign companies interested, more 
interested than U.S. companies, or is this strictly an academic 
kind of a thing or a national security kind of a enterprise 
that we are looking at here?
    Dr. Wadsworth, maybe you have a view.
    Dr. Wadsworth. Yes, I can certainly attest to the degree of 
interest in the laboratory since we won this competition. We 
are engaged with numerous universities, numerous industries, 
and numerous other laboratories from around the world. Our 
challenge will be to find the most effective peer review 
process to get the best possible teams together to use the 
computer.
    Senator Bingaman. But you are not concerned about any lack 
of interest by U.S. researchers.
    Dr. Wadsworth. Absolutely not. No. We are engaged with over 
25 U.S. universities right now and many different industries, 
as well as computer companies themselves. There is no lack of 
interest at all.
    Senator Bingaman. Let me ask another question. One of the 
big problems that we have created for ourselves--and maybe it 
is built into the real world environment we are in--is this 
distinction that we have built into all structures between 
defense-related research and non-defense-related research. Of 
course, NNSA is focused on the defense-related research and as 
Dr. Kusnezov just indicated, their work is of a classified 
nature and therefore they are not able to open up their 
computing capability for the use of others.
    It seems like, though, in developing this tool that we are 
talking about, this high-end computing capability, we need to 
have very good cooperation and communication between the 
defense side and the non-defense side. I mean, if we have got 
the greatest concentration of high-end computing in NNSA, 
presumably there are some people within NNSA who know something 
about high-end computing. Of course, I am particularly 
interested because of Los Alamos Lab and Sandia Lab in my 
State.
    To what extent can we be sure that there is a cooperative 
effort between the NNSA labs and the rest of the DOE labs in 
the development of this capability, and not only the 
development of it, but the use of it?
    Dr. Wadsworth. Not to take all the questions, but Los 
Alamos, Livermore, and Sandia are part of our proposal at Oak 
Ridge National Lab. I was at Livermore for 10 years, and our 
colleagues from Livermore visited us last week, as a matter of 
fact, at Oak Ridge. So we are sharing very much in that 
capability.
    Senator Bingaman. Yes, Mr. Scarafino.
    Mr. Scarafino. We had visited Los Alamos a number of years 
ago in order to get information on what kind of advancements 
they have been making, specifically in the parallel 
environment. We learned a lot from that. In fact, I think that 
probably gave us a 9 month or so advantage over our competition 
in being able to get a parallel processing environment up and 
running at Ford. So the information was very helpful and 
actually directly applied.
    Although my emphasis here was pushing for high-end 
computers, faster unit processors, we do use a significant 
amount of the parallel type, the commodity. They are very 
difficult to manage because of just the high numbers of units 
and stuff like that. And we did learn a lot from Los Alamos, 
and it provided us a very useful and very helpful interchange 
of information.
    Senator Bingaman. I just wanted to make the point, which I 
am sure everyone here is aware of, that when we established the 
NNSA as a separate unit within the Department of Energy, 
several of us expressed a concern that this might cordon off 
the laboratories that were going to be part of NNSA from the 
other scientific work that the Department was pursuing through 
the Office of Science and others. I am encouraged to hear that 
is not happening in this case, and I hope that is still the 
case.
    Dr. Kusnezov.
    Dr. Kusnezov. Thank you, Senator Bingaman.
    I would like to comment a little bit on that. I think there 
are very good relations between the Office of Science and the 
NNSA, both in Washington and in the field, and there are some 
good examples about how people work together.
    One thing to keep in mind is the research communities are 
typically pretty small and irrespective of where the people are 
found, whether in industry or in universities or at the labs, 
they tend to run into each other everywhere. So there is a very 
good communication network at really all levels.
    With respect to examples of good collaboration, I think you 
could consider, for example, platform architectures. Part of 
the leadership class proposal now at Oak Ridge is going to 
include one of the machines that was developed in part with 
Sandia, the Red Storm architecture. Following that, the Sandia 
people, together with Oak Ridge and other labs, are working 
together with Cray for the next generation beyond that for the 
1906 timeframe, the Black Widow. So there is very good work 
together of these people to push the architectures forward.
    The types of communication networks we use on our computers 
as well, these 10,000 processor machines, require a certain 
type of communication. You have essentially 10,000 different 
computers or processors calculating something, and they have to 
send information back and forth to give you the final result. 
The message passing interface--the MPI it is called--is 
developed at Argonne in collaboration with the defense program 
labs. So you find it in many places and there are many success 
stories about how we work together.
    Senator Bingaman. Mr. Chairman, I have one other question. 
I will just ask that if I could, and then I am going to have to 
leave.
    Senator Alexander. Go ahead.
    Senator Bingaman. Dr. Reed, you referred to these strategic 
plans that should include at least five features. The second 
one you list here is sustain support for computational science 
grand challenge teams to create and use leading edge 
computational codes and to educate new generations of HEC 
users. Do those computational science grand challenge teams 
exist today?
    Dr. Reed. There are certainly some of them, and this 
touches on the interplay across the community. They are from 
the academic side as well as from both sides of the Department 
of Energy. There are lots of collaborations. Those teams have 
been funded from many sources. One of them has been funded out 
of defense programs at some of the university agencies. There 
are several examples there.
    I think the message I would leave you with is that 
investment in high-end computing is a balanced process. The 
software, the architecture, and deployment of systems are 
critical, but as is the investment in people. Developing a 
large scale computational science code, one that will yield new 
scientific results either in an individual discipline or 
increasingly in an interdisciplinary world is a large scale 
enterprise, the development time to create these codes is 
measured in years. It is no longer a case that an individual 
researcher can create one in his or her laboratory. So the 
sustenance for that community is really critical if we want to 
use the machines. We can build a highway, but we need the cars 
to drive on it as well. The human component is the part that is 
renewable that allows us to understand the strengths and 
weaknesses of particular machines to develop the next 
generation of systems that will be more effective.
    So there are some of those teams, for sure. We could 
benefit from additional investment in that, and that goes hand 
in glove with the investment in software and systems.
    Senator Bingaman. Thank you, Mr. Chairman, very much for 
having the hearing and I thank all the witnesses.
    Senator Alexander. Thank you, Senator Bingaman. We will 
keep talking about this. I have maybe one more question. Then 
we will bring the hearing to a conclusion.
    When I was in Yokohama a couple or 3 months ago being 
briefed on the Earth Simulator, the Japanese computer, my sense 
of things was that it was sold to the Japanese people and 
Japanese government primarily as a way to understand climate 
change, that that was the major use for it. That kind of high-
end computing, as I understand, is not the only kind of high-
end computing. There are different kinds of architecture.
    Mr. Scarafino, there was some skepticism there that that 
sort of architecture would be very useful in manufacturing, in 
other words, that other kinds of architecture which already 
existed and might not require such an accelerated investment as 
we are talking about might be fine for designing automobiles, 
while we might need to catch the Earth Simulator to figure out 
climate change.
    Now, it sounds today like you might not agree with that. 
What is your view on these different types of architecture?
    Mr. Scarafino. Actually the Earth Simulator is made up of a 
classical design. They are made up of NEC vector computers, 
processors that are very similar to the C series and T series 
Crays that were made in the mid 1990's. They are very good 
general purpose processors. They can run at high utilization 
rates. Some problems run on these machines run at utilization 
rates are in the mid 30's percent-wise, which is a little over 
three times the type of efficiencies you can get in a typical 
off-the-shelf commodity-based cluster. So what the Japanese 
built was a machine capable of basically solving general 
purpose problems.
    In addition to the climate aspect, they also were studying 
earthquake simulation too. But as far as it being a specialized 
machine only for climatology, I do not see that----
    Senator Alexander. So the effort we are describing you 
believe has a real relevance to our manufacturing and 
competitiveness in the United States.
    Mr. Scarafino. Yes. The processors are expensive. They have 
a very good balance between processor speed and their access to 
memory, the memory bandwidth and latency. Also, being vector 
processors, vectors are kind of the first level of parallelism 
that is very highly efficient. So they did not invent a new 
architecture at all. They basically refined an old one and put 
together a very large machine. It has got over 5,000 processors 
in it.
    Senator Alexander. Dr. Wadsworth, would you have anything 
to add to that?
    Dr. Wadsworth. I think that was a good summary.
    Senator Alexander. Well, let me thank each of the five of 
you, as well as Mr. Decker for coming earlier. Senator Bingaman 
and I intend to continue to press to provide the support from 
the Federal Government to help the United States regain the 
lead in high-performance computing. We want to do that 
intelligently and we want to spend whatever money Congress 
appropriates as wisely as we can.
    This hearing today has defined specific goals. It has given 
us a perspective from a broad variety of sectors. It has 
suggested that we can reach those goals and that the benefits 
would have broad implications, not narrow implications in 
America's society.
    We have heard also that the Oak Ridge effort may be 
centered there but it is in partnership with other major 
laboratories, universities, and major businesses in the country 
and that a focus is being paid on making sure that whatever the 
results are they are broadly available in an easy way. And the 
facility is already built to help do that.
    Dr. Kusnezov has said to us that the very important 
national security work we are already doing in high-end 
computing is a very busy operation, already using much of our 
capacity and that we need more. At least, there is not enough 
there to meet the demand that we have in the unclassified 
world, and there is no conflict with this effort and the effort 
that you manage. In fact, the two would work in parallel.
    So this has been a very useful hearing. I thank you for 
your time.
    The hearing is adjourned.
    [Whereupon, at 4:03 p.m., the hearing was adjourned.]

                                    

      

</pre></body></html>
